<html>
<title> - H. RES. 398, THE UNITED STATES TRAINING ON AND COMMEMORATION OF THE ARMENIAN GENOCIDE RESOLUTION</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




  H. RES. 398, THE UNITED STATES TRAINING ON AND COMMEMORATION OF THE 
                      ARMENIAN GENOCIDE RESOLUTION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               INTERNATIONAL OPERATIONS AND HUMAN RIGHTS

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 14, 2000

                               __________

                           Serial No. 106-181

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE
69-533                     WASHINGTON : 2001


                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           DONALD M. PAYNE, New Jersey
ILEANA ROS-LEHTINEN, Florida         ROBERT MENENDEZ, New Jersey
CASS BALLENGER, North Carolina       SHERROD BROWN, Ohio
DANA ROHRABACHER, California         CYNTHIA A. McKINNEY, Georgia
DONALD A. MANZULLO, Illinois         ALCEE L. HASTINGS, Florida
EDWARD R. ROYCE, California          PAT DANNER, Missouri
PETER T. KING, New York              EARL F. HILLIARD, Alabama
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
MARSHALL ``MARK'' SANFORD, South     ROBERT WEXLER, Florida
    Carolina                         STEVEN R. ROTHMAN, New Jersey
MATT SALMON, Arizona                 JIM DAVIS, Florida
AMO HOUGHTON, New York               EARL POMEROY, North Dakota
TOM CAMPBELL, California             WILLIAM D. DELAHUNT, Massachusetts
JOHN M. McHUGH, New York             GREGORY W. MEEKS, New York
KEVIN BRADY, Texas                   BARBARA LEE, California
RICHARD BURR, North Carolina         JOSEPH CROWLEY, New York
PAUL E. GILLMOR, Ohio                JOSEPH M. HOEFFEL, Pennsylvania
GEORGE P. RADANOVICH, California     [VACANCY]
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

       Subcommittee on International Operations and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
WILLIAM F. GOODLING, Pennsylvania    CYNTHIA A. MCKINNEY, Georgia
HENRY J. HYDE, Illinois              ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
CASS BALLENGER, North Carolina       EARL F. HILLIARD, Alabama
PETER T. KING, New York              BRAD SHERMAN, California
MATT SALMON, Arizona                 WILLIAM D. DELAHUNT, Massachusetts
THOMAS G. TANCREDO, Colorado         GREGORY W. MEEKS, New York
            Grover Joseph Rees, Subcommittee Staff Director
        Jeffrey A. Pilch, Democratic Professional Staff Director
                      Douglas C. Anderson, Counsel
                    Marta Pincheira, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable James E. Rogan, a Representative in Congress from 
  California.....................................................    11
The  Honorable  David  E.  Bonior,  a  Representative  in  
  Congress from Michigan.........................................    12
Ambassador Marc Grossman, Director General of the Foreign 
  Service, U.S. Department of State..............................    21
Robert F. Melson, Professor of Political Science, Purdue 
  University.....................................................    36
Ambassador Gunduz Suphi Aktan, former Ambassador of the Republic 
  of Turkey......................................................    39
Justin McCarthy, Professor of History, University of Louisville..    42
Roger W. Smith, Professor of Government, College of William and 
  Mary...........................................................    45

                                APPENDIX

Prepared statements:

The Honorable Christopher H. Smith, a Representative in Congress 
  from New Jersey, and Chairman, Subcommittee on International 
  Operations and Human Rights....................................    72
The Honorable George Radanovich, a Representative in Congress 
  from California................................................    77
The  Honorable  David  E.  Bonior,  a  Representative  in  
  Congress from Michigan.........................................    79
The Honorable Frank Pallone, Jr., a Representative in Congress 
  from New Jersey................................................    82
Ambassador Marc Grossman.........................................    84
Robert F. Melson.................................................    88
Ambassador Gunduz Suphi Aktan....................................   116
Justin McCarthy..................................................   118
Roger W. Smith...................................................   121

Additional material submitted for the record:

H. Res. 398, The United States Training on and Commemoration of 
  the Armenian Genocide Resolution...............................   125
Supplemental response submitted by Ambassador Marc Grossman......   136
Letter from Prof. Elie Wiesel to Hon. Christopher H. Smith.......   137
Letter from Dr. Deborah E. Lipstadt to Hon. Christopher H. Smith.   138
Letter and supplemental materials submitted by Dr. Roger W. Smith   139
Library of Congress translation of supplemental materials 
  submitted by Dr. Roger W. Smith................................   141
Chapter 24 of ``Ambassador Morgenthau's Story,'' by Henry 
  Morgenthau, submitted by Hon. Christopher H. Smith.............   143
Submitted by Dr. Robert F. Melson:

    Selections from ``Encyclopedia of Genocide, Volume 1''.......   155
    ``The Power of Acknowledgement,'' by Peter Bakalian..........   159
    Statements about the Armenian Genocide by American diplomats 
      on site in Turkey..........................................   164
    Essential facts about the systemic state planning of the 
      Armenian Genocide by the Iddihadist government of Turkey in 
      1915.......................................................   172

Facts related to the family of Greg Bedian, submitted by Hon. 
  Benjamin A. Gilman.............................................   177

 
  H. RES. 398, THE UNITED STATES TRAINING ON AND COMMEMORATION OF THE 
                      ARMENIAN GENOCIDE RESOLUTION

                              ----------                              


                      THURSDAY, SEPTEMBER 14, 2000

              House of Representatives,    
                  Subcommittee on International    
                           Operations and Human Rights,    
                      Committee on International Relations,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:19 p.m. in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith, (Chairman of the Subcommittee) presiding.
    Mr. Smith of New Jersey. The Subcommittee will come to 
order.
    Let me apologize to our witnesses and to our friends who 
have joined us today. Obviously the intervening vote put us 
behind schedule a little bit, but we will start and this 
hearing will stay in session so that everyone will be heard and 
can ask the maximum number of questions. So I hope nobody is 
under any time constraints, because it is important that we 
have a thorough hearing on this very important issue.
    I am pleased to convene this hearing of the Subcommittee on 
International Operations and Human Rights. Today we will hear 
testimony on House Resolution 398, calling upon the President 
to provide appropriate training and materials to the Foreign 
Service officers, State Department officials, and other 
appropriate executive branch officials on the Armenian 
genocide.
    In 1915, there were about 2 million Armenians living in 
what was then the Ottoman Empire. They were living in a region 
that they inhabited for 2,500 years. By 1923, well over 90 
percent of these Armenians had disappeared. Most of them, as 
many as 1.5 million were dead. The remainder had been forced 
into exile.
    The government of the empire, whose leaders were members of 
the movement known as the Young Turks, called this campaign 
against Armenians a mass deportation rather than a mass murder, 
but the United States Ambassador to Turkey at the time, Henry 
Morgenthau, called it a ``campaign of race extermination.''
    The British, French, and Russian governments accused the 
Young Turk government of a ``crime against humanity,'' the 
first time in history that charge was ever made by one state 
against another, and even the government of the Republic of 
Turkey, the successor state to the Ottoman Empire, tried and 
convicted a number of high ranking Young Turk officials for 
their role in what the Turkish government then called ``the 
massacre and destruction of the Armenians.''
    When the term genocide was invented in 1944 to describe the 
systematic destruction of an entire people, its author, Raphael 
Lemkin, illustrated the term by saying it was ``the sort of 
thing Hitler did to the Jews and the Turks did to the 
Armenians.''
    Unfortunately, memories seem to have faded. The government 
of the Republic of Turkey and some of its apologists in the 
United States now deny that the Armenian genocide ever 
happened. They do not deny that people died by the hundreds and 
thousands or even that these deaths were often preceded by mass 
rape, torture, and other unspeakable atrocities, but they fall 
back on the standard arguments that have always used to defend 
the indefensible.
    They say it happened during wartime that the Armenians were 
being deported because many of them were in sympathy with the 
enemies of the Empire, and that the atrocities were random acts 
committed by civilians and by soldiers acting without 
authorization from the central government.
    These apologists dismiss contrary statements by 
representatives of the governments of the United States, France 
and England by saying that these officials were biased against 
the Ottoman Empire and against the Turkish people, but this 
dismissal ignores similar statements by the Ambassadors of 
Germany and Italy, who were allied with the Empire in the First 
World War. It also dismisses the undeniable fact that the 
Armenians were being forcibly relocated to a desert in which 
even those who were not massacred had no serious chance to 
survive.
    Even among those in this country who do not deny the basic 
facts of the Armenian genocide, there often seems to be a 
conspiracy of silence and of obfuscation. Whenever the issue 
threatens to surface in Congress, we are quietly but firmly 
reminded by diplomats and other executive branch officials that 
Turkey is a NATO ally and has assisted us in pursuing important 
strategic objectives in the Middle East and elsewhere. Yet 
Germany is also an important ally, and these same diplomats and 
officials would never dream of denying or ignoring the 
Holocaust.
    Friends do not let friends commit crimes against humanity 
or refuse to come to terms with them once they have happened. 
Ironically, the principal effect of this systematic denial of 
the Armenian genocide is that it forces those who insist on the 
acknowledgement of the genocide to prove their case over and 
over and over again in more and more detail. So instead of 
learning the lessons of the past and applying them to the 
future, we find ourselves still arguing after 85 years about 
whether the past really happened.
    Finally, in this and every other human rights debate we 
hear the argument that the United States should mind its own 
business, that we should worry about our own human rights 
problems and let other nations worry about theirs. Oddly, this 
often comes from the same sources that are quick to accuse the 
United States of isolationism when we fail to surrender our 
resources or our sovereignty quite as quickly as they would 
like us to.
    The answer is that, of course, we do have human rights 
violations here. The acknowledgement that we have such domestic 
problems imposes a responsibility to work diligently to fix 
them. The United States has perhaps the world's best developed 
system for redress and correction of offenses by government 
officials against private citizens, but it does not absolve us 
from the responsibility to ensure that the U.S. foreign policy 
promotes honesty, morality, and justice.
    United States foreign policy must be realistic and 
flexible, but it need not and must not be implicit on a 
conspiracy of silence about genocide. This resolution takes two 
important steps toward ending that silence. It urges the 
President to start calling the Armenian genocide by its right 
name, and it calls on the Secretary of State to ensure that 
U.S. diplomatic and other officials be thoroughly familiarized 
with the facts about the Armenian genocide.
    This resolution was first called to my attention by 
Congressman Jim Rogan and by Congressman George Radanovich. I 
told them I would take a close look at the resolution and 
strongly consider scheduling a Subcommittee markup so that the 
full International Relations Committee can consider it in time 
for consideration by the whole House in this session of 
Congress.
    I am happy to say that we have tentatively scheduled a 
markup for next Wednesday, September 20. I expect that there 
will be different views among the Members of the Subcommittee 
about the merits of the resolution, but it clearly deserves an 
up or down vote. My own view is that this resolution deserves 
to pass because at its core it simply affirms that the United 
States foreign policy should begin by telling the truth.
    I would like to yield to my very good friend, Cynthia 
McKinney, the Ranking Member of our Subcommittee, the 
gentlelady from Georgia.
    Ms. McKinney. Thank you, Mr. Chairman, for yielding to me, 
and thank you for calling this very important hearing. I have 
another hearing going on right now on the issue of human rights 
in the United States, so please do not take my early departure 
as a sign of my not caring about this very important issue, but 
rather just a sign of the fact that we have a very hectic 
schedule up here in these waning days of this session.
    The legacy of the Armenian genocide and of all genocides 
must be remembered so that the human tragedy of genocides, 
which has continued until the present, will not be forgotten. 
It is important that the truth be told and not politicized. As 
too many of us do not know, from 1915 to 1923 the Ottoman 
Government had over 1.5 million Armenians massacred and more 
than 500,000 survivors forcibly expelled from their historical 
homeland.
    U.S. Ambassador to the Ottoman Empire during this period, 
Henry Morgenthau, Sr., in a statement at the time said when 
Turkish authorities gave the orders for the massive Armenian 
deportations, they were ``merely giving the death warrant to a 
whole race. They understood this well, and in their 
conversation with me they made no particular attempt to conceal 
the fact.''
    So horrific were the acts that the Ottoman Government 
perpetrated on the Armenian people that Ambassador Morgenthau 
noted, ``I am confident that the whole history of the human 
race contains no such horrible episode as this. The great 
massacres and persecutions of the past seem almost 
insignificant when compared to the sufferings of the Armenian 
race in 1915.''
    Well, as we all know, this was not the end of genocide in 
the twentieth century as the Armenian massacres were used as a 
blueprint for Hitler's Third Reich and efficient manner of 
conquest. Recently, the Rwandan and the Yugoslavian genocides 
used the same efficient methods in order to subjugate and 
obliterate an entire group of people. Hitler's attitude 
established a directly historical connection between the Jewish 
Holocaust and the Armenian genocide, demonstrating that the 
first genocide of the century was a precursor of worse things 
to come.
    Hitler incredibly referred to the extermination of the 
Armenians as a laudable event, an example to emulate and a 
historical model. As for the Nazis' genocide of the Jews, 
gypsies, Catholics and homosexuals, they even killed their own 
retarded children.
    The Armenian genocide has been called the forgotten 
genocide, but it is not the only forgotten genocide. The 
Rwandan genocide in which an estimated 1 million people died 
was largely ignored by most of the world, and the United States 
could have prevented it and instead, for political reasons, 
chose to do nothing. In fact, we now know that the Clinton 
Administration actively fought to ensure that nothing would be 
done to protect the innocent Rwandan lives.
    The same activism to not be involved occurred in Srebrenica 
in 1995 when the United Nations surrendered 30,000 Bosnian 
Muslims to the Serbian army knowing that they would be 
slaughtered.
    Crimes against humanity are being committed as we speak in 
Tibet, Sierra Leone, Democratic Republic of Congo, and the 
world does nothing. What right does any one of us have to 
ignore what happened to the Armenians?
    As I look around this room today of different ethnic 
groups, different religions, different races, I am reminded of 
the words attributed to Martin Neibhur. In Germany they came 
first for the Communists, and I did not speak because I was not 
a Communist. Then they came for the Jews, and I did not speak 
because I was not a Jew. Then they came for the trade 
unionists, and I did not speak up because I was not a trade 
unionist. Then they came for the Catholics, and I did not speak 
up because I was a Protestant. Then they came for me, and by 
that time no one was left to speak up.
    Thank you, Mr. Chairman.
    Mr. Smith of New Jersey. Ms. McKinney, thank you very much.
    The Chair will recognize Members of the Committee going 
down the line by when they came to the Subcommittee hearing.
    Mr. Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman.
    There is no doubt in my mind that especially the very 
strong words by Ms. McKinney, the great admonition that she has 
given us to pay attention to the issues that confront us today 
around the world, are true, are accurate and are compelling.
    We know what is happening. We know that in not only the 
areas that she has talked about but in other areas, especially 
on the African continent, places like Sudan, of course, where 
there are events underway which we can in fact have an impact 
upon by our decisions we make in this Congress.
    I am fully supportive of any attempt that we would have and 
that we would contemplate to bring an end to the kind of 
situations that she has described. You know I have certainly 
myself acted in whatever capacity I could to ameliorate those 
conditions.
    This particular resolution, however, has a different flavor 
to it, and I must admit to you, Mr. Chairman, that I am 
concerned about it today because I do not know and I cannot see 
as of yet what real purpose it serves, how much benefit it will 
bring both to the United States, to Turkey, to our ally, or, 
frankly, to anyone else because in fact what we are talking 
about here is a situation that you cannot necessarily attribute 
to the government of Turkey today, a problem directly related 
to their efforts, their intent, and yet that is exactly, of 
course, who would be most negatively affected by such a 
resolution.
    The Republic of Turkey was founded in 1923 in response to 
and in revolt against the Ottoman Empire and thus bears no 
responsibility for the suffering caused by its predecessor, yet 
that is, nonetheless, Turkey today would bear the brunt of the 
recriminations developing out of this resolution.
    So I am not convinced yet. Certainly I am here to hear the 
testimony, and I look forward to that, but I just wanted to 
indicate my concern on the front end that we may not be 
accomplishing what we hope would be the outcome of such a 
decision on our part to pass such a resolution.
    Thank you, Mr. Chairman.
    Mr. Smith of New Jersey. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. As always, as I 
have said, my compliments and personal commendation for your 
leadership, and I say outstanding leadership, over the years in 
championing the cause of human rights on behalf of our nation 
and working toward those nations who honestly are trying to 
rectify the situation with human rights violations around the 
world.
    I also would like to echo my sentiments in fully agreeing 
with the statement issued earlier by my colleague, the 
gentlelady from Georgia, Ms. McKinney, at the same time also 
tempering my concerns echoed by my good friend from Colorado, 
Mr. Tancredo, about the substance of this resolution.
    As a Member of the Subcommittee, I have always tried to 
wonder every time we use the word genocide who are we talking 
about; the torturing and the murdering of some 250,000 people 
in Yugoslavia under the presidency of Milosevic, or is it the 2 
million killings of Pol Pot in Cambodia, or the systematic 
slaughtering of 25 million people under Stalin's rule, or the 
exterminating of 6 million Jews under Nazism?
    I am trying to earnestly, Mr. Chairman, in giving the word 
genocide, if it is given in that right format in terms of what 
happened, I do not know. I am certainly here wanting to learn 
very much from the testimonies that will be elicited, solicited 
from our Committee this afternoon.
    I want to offer my personal welcome to our colleagues who 
are here to testify, my good friend from California, Mr. Rogan, 
and also our distinguished Minority Whip, the gentleman from 
Michigan, Mr. Bonior.
    Mr. Chairman, I do have some concerns of the resolution. 
This does not mean in any way that I lessen my concerns of the 
slaughtering or the killing of the Armenians in that period of 
time in our world's history.
    At the same time also I express my limited knowledge and 
understanding of how the Ottoman Empire functioned and the 
rivalries that took place between it and Russia and the fact 
that there were hundreds and thousands of the Turkish people 
that were also killed in whatever wars that took place between 
1915 and 1923.
    There are some expressions of concern, Mr. Chairman. 
Turkey, in 40 years of the Cold War, has never once flinched in 
terms of its loyalty and support of the NATO ally system as we 
were fighting the superpower then, the Soviet Union. I do not 
know of any country in our NATO relationship than Turkey that 
has never once faltered in its commitment to our strategic and 
to our national interest. I think we have to take that in 
proper perspective.
    I realize again I am not trying to paint a picture just 
favorable to this, but I am just trying to give it perspective, 
a historical perspective where Turkey was when it was the 
Ottoman Empire, where Turkey was in 1923 when it was organized 
again, even today as a democracy.
    Mr. Chairman, as we sit here today listening to the 
substance of the House Resolution and those who are going to 
testify, American warplanes are taking off from Turkish air 
bases to patrol the skies over northern Iraq. They cannot be 
there without the full cooperation of our Turkish ally, an ally 
whose soldiers have fought side by side with us since the 
Korean War.
    As we sit here today discussing this resolution, our 
special envoy, Ambassador Al Moses, is working with both the 
Greek and Turkish Governments to solve one of the most 
intractable regional problems in that area of the world, the 
issue of Cyprus.
    As we sit here today, American oil companies and the 
Administration is looking to move ahead on building a new oil 
pipeline across Turkey to deliver crude oil to America at a 
time when oil prices are high and likely to go even higher.
    As we sit here today, the Administration is seeking to end 
the war between Armenia and Azerbaijan, a war that has caused 
almost 1 million Azeri to become refugees in their own country.
    I raise these points, Mr. Chairman, to remind our 
colleagues that Turkey, a long-time friend and ally, plays a 
central role in helping us meet, understand and solve issues 
that fundamentally affect us in our national interests.
    Were this resolution to be adopted, I do not know what the 
results of the vote are going to be, and I am not going to make 
a guess out of this, but I will suggest, Mr. Chairman, the 
resolution as written has severe limitations. It is non-
binding. It is unenforceable. There is nothing to compel the 
Department of State to create the education program referenced, 
and I suspect, given this Administration's, in fact all 
previous Administrations', opposition, such a program would 
never, ever be created.
    I am concerned about the substance of the resolution, Mr. 
Chairman, but I will reserve my judgment until we hear both 
sides of the issue. Hopefully by then we will make an 
intelligent decision, but I just wanted to share with my 
colleagues those concerns.
    Thank you, Mr. Chairman.
    Mr. Smith of New Jersey. Thank you very much, Mr. 
Faleomavaega.
    I would like to ask Mr. Radanovich, who is the principal 
sponsor of H. Res. 398, if he has any opening comments?
    Mr. Radanovich. Thank you, Mr. Smith, for holding this 
hearing and the subsequent markup next Wednesday. I appreciate 
your consideration of my bill that I have co-sponsored with the 
gentleman from Michigan, Mr. Bonior, the United States Training 
on and Commemoration of the Armenian Genocide Resolution.
    This bipartisan resolution currently has more than 140 co-
sponsors. It calls upon the President to provide for 
appropriate training and materials to all Foreign Service 
officers, officials of the Department of State and any other 
executive branch employee involved in responding to issues 
related to human rights, ethnic cleansing and genocide by 
familiarizing them with the U.S. record relating to the 
Armenian genocide.
    As my colleagues here today are aware, the history of the 
Armenian government is thoroughly documented. Our own archives 
hold countless authoritative accounts of these events, as do 
the archives of many western nations. The most important of 
these perhaps was authored by the U.S. Ambassador to Turkey at 
the time, Henry Morgenthau.
    He wrote, ``I am confident that the whole history of the 
human race contains no such horrible episode as this. The great 
massacres and persecutions of the past seem almost 
insignificant when compared to the suffering of the Armenian 
race in 1915.''
    The human rights activist, Raphael Lemkin, the man who 
coined the term genocide, cited the systematic destruction of 
the Armenians as a clear case of genocide. There is no serious 
debate over these facts. I believe that this body is obligated 
to learn from this tragic history and also use this knowledge 
to inform our foreign policy community and the public about a 
very proud moment of American history.
    Responding to this crime against humanity, our government 
and people acted together to protest the genocide of the 
Armenians. This resolution preserves the truth about the 
Armenian genocide and documents the considerable U.S. response 
to that crime. We do so in order to empower our future leaders, 
backed by an informed public, to do everything possible to end 
the occurrences of genocide.
    As we begin this new millennium, genocide and ethnic 
cleansing continue to plague nations around the world. As 
Members of Congress and as Members of the International 
Relations Committee, we have a responsibility to ensure that 
the legacy of past genocides are remembered so that this human 
tragedy will not be repeated. Silence in the face of genocide, 
as we have learned, can only embolden those who would again 
seek the systematic destruction of an entire race of people.
    I am so pleased that Speaker Hastert shares our views about 
the importance of this resolution. In fact, he recently pledged 
to schedule H. Res. 398 for a vote on the House floor.
    I look forward to an interesting hearing this afternoon and 
a swift advancement of this bill to the floor. Again, I thank 
my chairman, Mr. Smith, so much for holding this timely 
hearing.
    Thank you.
    Mr. Smith of New Jersey. Thank you very much, Mr. 
Radanovich.
    I would like to ask Mr. Royce if he has any opening 
statement?
    Mr. Royce. Thank you, Chairman Smith. I appreciate very 
much your holding this hearing, as I do the work that 
Congressman Radanovich and Congressman Rogan and others have 
put in to make certain that we do not forget this tragedy.
    Let me just say that at the end of this 8-year campaign 
that began in 1915, the population of western Anatolia and 
Turkey that had been composed of Armenian people was virtually 
wiped out, and, as we have heard, the west ignored the words of 
Ambassador Morgenthau at the time, as he tried to explain to 
the west that it was ethnic cleansing. It is unfortunate that 
the Turkish Government to this day does not recognize this. 
Willful ignorance of the lessons of history do much to repeat 
them.
    My father was with the Seventh Army at Dachau, Germany, 
when they liberated the camps, and he took pictures that day. 
To this day, he carries on a war of correspondence with those 
who claim that that Holocaust never occurred.
    I think all of us should ask ourselves if this should not 
be a bit on our conscious, the fact that Adolf Hitler was able 
to say ``who remembers the Armenians,'' and I think we should 
ask ourselves why is it that the world does not own up and does 
not admit the historical record. I think we have an opportunity 
today to start to rectify that, and I hope we do. It is 
important that we learn the lesson from this 85-year-old 
tragedy.
    In my home State of California, the state board of 
education has incorporated the story of the Armenian genocide 
in the social studies curriculum there. This is the right thing 
to do. In my youth, I talked to some who had survived in their 
villages this genocide; in some cases, the sole survivors. The 
Turkish army had obliterated those villages, massacred those 
people.
    Now, it is not the same Turkish army of today. We 
understand this. We understand this is a different government, 
but again there is no reason not to set the record straight, 
and this resolution, as stated, will call upon our president to 
provide for appropriate training and materials on this genocide 
to all Foreign Service officers and State Department officials 
and executive branch employees.
    It teaches about what? About ethnic cleansing and about 
human rights. It is an important step to help us better 
understand genocide whenever it threatens to erupt by 
recognizing, and learning about this crime against humanity, so 
we can begin to honor the memory of the victims.
    Chairman Smith, I deeply believe that we need to move this 
bill along, and I respectfully urge you to mark up this bill 
and send it to the International Relations Committee so we can 
bring it before the full House for a vote.
    I thank you again for holding this hearing.
    Mr. Smith of New Jersey. The Chair recognizes Mr. Burton.
    Mr. Burton. Thank you, Mr. Chairman. This is not a new 
issue. I can remember debating this 10 to 15 years ago in the 
U.S. House of Representatives on the floor. We debated it and 
went into great detail. We had volumes and volumes of books on 
the Armenian genocide and on the Turkish loss of life in the 
battles that took place in the period we are talking about.
    There is a great deal of contradiction about what happened, 
depending on which volume you are looking at. I am sure when we 
get to the debate, if it gets to the floor, these volumes will 
be coming out again, and you will see historical differences 
based upon different writers and different points of view.
    However, today I would like to make a couple of points. 
First of all, there is no question that the Armenian people 
endured horrible massacres and suffering during the first world 
war. That is beyond question. I do not think there is anyone in 
our government who does not believe that innocent Armenians' 
lives that were lost should be honored and remembered. In fact, 
on April 24, every year, President Clinton has preserved the 
tradition of commemorating by having Armenian Remembrance Day. 
We commend him for that.
    So the world has not forgotten the tragedies that occurred 
during this time period, but let us not forget some other 
things. During that time period, nearly 3 million Turks and 
other Muslims lost their lives, and there were some real 
tragedies and atrocities that took place at the hands of people 
on the other side that the Turks had to deal with.
    Now, this appears to be a broad based bill, but in fact it 
is very narrowly focused. It provides for training of executive 
branch employees involved in responding to human rights, ethnic 
cleansing and genocide. However, the resolution singles out 
only one specification for training of U.S. diplomats, and that 
is the so-called Armenian genocide.
    Why does it not include the Holocaust? Why does it not 
include the genocides that are taking place today in the Sudan, 
and I know you worked on that, and other parts between the 
Hutus and the Tutsis in Africa where millions have died, or the 
genocide that took place in Ethiopia where millions of people 
were starved to death while we were giving aid to help the 
starving masses over there? None of that is mentioned. We are 
singling out one specific thing that happened over 80 years 
ago, and I just do not understand why.
    Besides that, you know, I often wonder if we ever think 
about our allies. I think Mr. Faleomavaega touched on that just 
a minute ago. The Turks have been our friends and our allies in 
NATO through the entire Cold War. When others fell by the 
wayside, the Turkish Government, the Turkish people, were with 
us. They were with us in Somalia. They were with us.
    So what do we do? We are going back 82 years, and we are 
going to give them a slap in the face, and it is going to hurt. 
Make no mistake about it. If we pass this resolution, it is 
going to hurt our foreign policy. There is just no question in 
my mind.
    I would also like to ask my colleagues. Does anybody 
remember what we did to the Indians in America? Does anybody 
ever remember what we did when whole armies of our soldiers 
went in and wiped out Indian villages and killed women and 
children, massacred them? There is nothing about that in here. 
Was that a genocide? That is part of our history.
    We do not hear the Turks saying ``hey, why don't you guys, 
before you start questioning us, pay a little attention to your 
own history?'' That is something I think we should take a hard 
look at. If you are going to cast stones, get the mote out of 
your eye first.
    Now, there is no question in my mind that atrocities took 
place over there, and that is why I complimented the President, 
which I do not do very often. I complimented the President 
about the Armenian Remembrance Day because it does point out 
that there were atrocities that took place, but should we 
single them out 80 some years ago when we have atrocities of 
our own we have to deal with, when there are atrocities in 
Africa going on today, when there have been atrocities going on 
all over the world and not one of them is even mentioned in 
this resolution?
    It should be more broadly based, and it should be fair. 
Now, if you come up with a resolution like that that goes after 
all genocides and mentions this then I think I could support 
it. But to single them out at the expense of one of our best 
allies in the world, I think makes absolutely no sense. It is a 
mess as far as our foreign policy is concerned. I just do not 
understand it.
    So let me just say, in case you have not figured it out by 
now, Mr. Chairman, I oppose this resolution in its present 
form.
    Mr. Smith of New Jersey. Thank you very much.
    I would like to yield to Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman.
    Mr. Smith of New Jersey. That will be the final statement 
by Members of the panel, and then we will go to our two 
distinguished Members who will present testimony.
    Mr. Sherman. I thank the two distinguished Members who will 
be testifying for their patience. I do want to respond to the 
last statement by Mr. Burton. He asked why do we have to do 
this after 80 years? Why do we have to recognize this 
particular genocide?
    It was the first genocide of the twentieth century. It was 
a genocide that Hitler could point to and tell those around him 
that they would face no retribution, for the world had 
forgotten the Armenians, but it is also important that we 
recognize this genocide precisely because of the denials.
    America has made it very clear. Slavery existed here, and 
it was cruel. If we endeavor to deny that, it would make us a 
weaker country. As the gentleman from Indiana points out, 
America committed genocide against a number of Native American 
tribes, quite a number. If we were to deny that that would make 
us a weaker country.
    For reasons I have not understood, Turkey believes in 
denying the history of its predecessor regime. I do not know 
why, but I do know that as long as there are those who try to 
deny the Armenian genocide, we have to teach those in our State 
Department and our entire country that, yes, it did occur. The 
historical differences are only around the margins. Was it 
exactly how many more than 1 million people were killed because 
of their ethnicity? Those are details. This was the first 
genocide of the twentieth century.
    Now, Turkey is indeed a NATO ally of the United States, and 
it would be a stronger ally if, perhaps prodded by America, it 
would acknowledge its own history. How strong an ally would 
Germany be if it denied the Holocaust? How strong an ally would 
Britain be if British children were told that its colonial past 
was nothing but sugar and spice and that all of the nations 
that Britain ruled were treated always with kindness, 
generosity and were happy to be ruled as part of a colonial 
empire?
    Of all of our NATO allies, only one insists upon denying 
its past. Let us help Turkey recognize that past, and let's 
make sure that those who deny it are defeated by the truth.
    Thank you.
    Mr. Smith of New Jersey. Thank you very much, Mr. Sherman.
    Let me go now to our very distinguished panel, first with 
Congressman Jim Rogan who is a representative for the 27th 
District of California. He is a Member of the House Judiciary 
Committee and the Assistant Majority Whip here in the House, 
and then David Bonior, who, as Mr. Radanovich pointed out, is 
the principal co-sponsor of the pending resolution, H. Res. 
398. He is a representative from the 10th District of Michigan 
and the Democratic Whip. We are very happy to have both of you 
gentlemen here.
    Mr. Rogan, if you would begin?

STATEMENT OF THE HONORABLE JAMES E. ROGAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Rogan. Mr. Chairman, first I want to thank you for 
scheduling this very important hearing today and for giving me 
the opportunity to come and address this Subcommittee on an 
issue of great importance to history, but also of great 
importance to justice.
    I want to especially acknowledge and thank my colleague 
from California, Mr. Radanovich, for his steadfast and unending 
leadership in the Armenian caucus and on this issue in 
particular.
    Mr. Chairman, this resolution is supported by a bipartisan 
coalition of over 130 of our colleagues who call upon our body, 
the U.S. House of Representatives, to recognize what was in 
fact the first genocide of the twentieth century.
    As has been noted in previous comments, when Adolf Hitler 
prepared to embark upon a horrible Holocaust against the Jews, 
he scoffed at the notion that the world would rebel in 
revulsion. His response was, ``Who remembers the Armenians?''
    Regrettably, in some of our current governmental circles 
that question could well be asked today. Acknowledgement of the 
Armenian genocide is not just an Armenian issue. Mr. Chairman, 
it is a moral issue, and our body, the House of 
Representatives, should be on the right side of it.
    This resolution is not ``anti'' any other nation, 
especially a steadfast ally of the United States. It was not 
crafted as a punitive measure. Rather, it was drafted as an 
integrity measure. It simply calls on our government to 
acknowledge the atrocities committed against the Armenian 
people between 1915 and 1923 and calls for our State Department 
to have its representatives educated in the same.
    In the years during and immediately after the First World 
War, over 1.5 million Armenians were displaced, deported, 
tortured and killed at the hands of some associated with the 
Ottoman Empire. Families that had inhabited their sacred land 
since the time of Christ were wiped from the face of the earth. 
Their homes were destroyed. A generation of Armenians watched 
relatives be taken away from their villages, never to return.
    Our colleagues who have joined me as members of the 
Armenian caucus are not alone in fighting for this resolution. 
During the thirtieth anniversary of the Scholars Conference on 
the Holocaust and the Churches held earlier this year, 
Holocaust survivors publicly called upon the west to affirm and 
recognize the Armenian atrocities that took place.
    In working to recognize the Armenian genocide, a point 
needs to be reemphasized. We do not seek this action to point 
any finger of blame, nor do we seek to legislate history. Our 
intention is merely to recognize this tragedy occurred and 
publicly affirm its affect on humanity.
    It is time for the House of Representatives to answer Adolf 
Hitler's question of half a century ago--who remembers the 
Armenians? America does, and our nation will never again turn a 
blind eye to horror and pretend out of geopolitical convenience 
that crimes against humanity did not occur.
    Mr. Chairman, I want to thank also our distinguished 
colleague and friend, the gentleman from Michigan, for joining 
me here on the panel today. I thank each of the Members of this 
Committee for their consideration and for the passion that they 
bring to this issue, and I yield back.
    [The prepared statement of Representative Rogan appears in 
the appendix.]
    Mr. Smith of New Jersey. Thank you very much, Mr. Rogan, 
and thank you for the very significant push that you gave to 
bringing this resolution to the fore. It will be, as I said 
earlier, marked up we hope on September 20, Wednesday of next 
week, and for your considerable work that you did to make this 
hearing possible.
    I also want to thank Mr. Bonior in advance for his 
leadership. This is a bipartisan resolution, and I would like 
to yield to my good friend from Michigan.

STATEMENT OF THE HONORABLE DAVID E. BONIOR, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Bonior. Thank you, Mr. Chairman. Since we are thanking 
each other, let me thank you for your steadfastness not only on 
this, but for what I consider quite a magnificent record your 
whole career here on human rights issues. You have really stood 
out on virtually everything that we have had before us that has 
touched on human rights in this Congress and in previous 
Congresses, and I thank you for it.
    To you, Ms. McKinney, a wonderful statement by Mr. Sherman 
and the other Members of the Committee. I want to thank you for 
conducting this hearing today on a bipartisan legislation that 
was introduced by Representative Radanovich, who has been 
steadfast and dogged in his determination on this, and me, to 
recognize the Armenian genocide.
    Representative Radanovich and I have worked closely 
together on this resolution since 1995. My personal involvement 
with this resolution began in 1987 when I managed the rule for 
the debate in the House of Representatives on the resolution.
    Mr. Chairman, as a student of history, I have always been 
outraged that this terrible tragedy was not recognized 
appropriately by the Congress. Only once, in 1996, over the 
past few decades has the House even indirectly affirmed this 
recognition. It is time to bring this resolution to the floor 
of the House, and I am glad to hear of the commitment to do 
that this afternoon.
    Those who deny the Armenian genocide its proper recognition 
ignore the substantial body of evidence which exists in the 
United States and internationally. The facts are very, very 
clear. Beginning on the night of April 24, 1915, the religious 
and intellectual leaders of the Armenian community of 
Constantinople were taken from their beds, imprisoned, tortured 
and killed.
    In the days that followed, the remaining males over the age 
of 15 were gathered in cities and villages and towns throughout 
the Ottoman Empire, Ottoman, Turkey, roped together, marched to 
nearby uninhabited areas and killed. Innocent women and 
children were forced to march through barren wastelands, urged 
on by whips and clubs, and denied food and water. When they 
dared to step out of line, they were repeatedly attacked, 
robbed, raped and ultimately killed. When all was said and 
done, 1.5 million Armenians lay dead, and a homeland which 
stood for 3,000 years was nearly completely depopulated.
    I believe that those of us who stand for human rights have 
a responsibility to remember the victims and the survivors. We 
have a responsibility to speak out and to make sure that 
tragedies like this are never allowed to happen again.
    As I mentioned, Representative Radanovich and I have 
introduced a resolution, H. Res. 398, sponsored by more than 
130 Members of Congress to respond to the issue of genocide and 
to confirm statements of fact on the Armenian genocide. For 
much of the twentieth century, the world did not seem to learn 
the lessons of the past. We must pause today and again say 
never again.
    We cannot forget that in 1939, another leader used the 
Armenian genocide as justification for his own sick actions. 
This leader said, and we have heard this quote, and I do not 
think we can hear it enough, but I will repeat it again. ``I 
have given orders to my death units to exterminate without 
mercy or pity the men, women and children belonging to the 
Polish speaking race. After all,'' Adolf Hitler asked, ``who 
today remembers the extermination of the Armenians?''
    Mr. Chairman, it is up to all of us to remember. For 
centuries the Armenian people have shown great courage and 
strength. The least we can do is match their courage with our 
commitment because in the end we are their voice, and we must 
do all that we can to remember. If we do not, nobody else will.
    Mr. Chairman, some may say that this resolution will alter 
our relationship with Turkey, and I agree. It will. It might 
give the Turkish Government an opportunity to join with us in 
acknowledging the Armenian genocide. Such an acknowledgement 
will help open the door to improved relations in the region. We 
have learned from ethnic conflicts around the world that 
differences are hard to set aside until history, no matter how 
tragic, is acknowledged. Only then can the healing process 
begin.
    This Subcommittee and the House should follow the examples 
of Elie Wiesel, the noted Nobel Peace Prize laureate and 
Holocaust survivor who said this about the Armenian genocide: 
``The Turks should have understood the pain and the anger of 
the Armenians, who are denied the right to remember. The Turks 
today are not responsible for the bloody events that took place 
50 years earlier, but they are responsible for their present 
attitudes regarding these events.''
    Mr. Chairman, House Resolution 398 is our opportunity in 
the Congress to confirm the historical record. This is about 
human rights. It is also about historical fact. As we enter 
this new millennium, we cannot allow these tragic events to be 
erased from our memory.
    I am pleased to be joined with my colleague, Mr. Rogan, and 
appreciate his statement, and I would ask, Mr. Chairman, if it 
is possible now to show a very short film that I have--it is 
about 2\1/2\ minutes--for our edification?
    Mr. Smith of New Jersey. Without a doubt, Mr. Bonior. We 
are happy to see the film.
    Mr. Bonior. Thank you.
    [Videotape shown.]
    [The prepared statement of Representative Bonior appears in 
the appendix.]
    Mr. Smith of New Jersey. Mr. Bonior, thank you for your 
testimony, and thank you for providing the Subcommittee that 
very moving and compelling videotape. Let me just ask a couple 
of questions and then yield to my colleagues for any questions 
they may have.
    Earlier in some of the opening statements there was some 
talk about what does genocide actually mean, and I think it is 
worth noting at the beginning of this hearing that the 
Convention on the Prevention and Punishment of the Crime of 
Genocide which entered into force on January 12, 1951, Article 
2 makes it very clear:

    In the present convention, genocide means any of the 
following acts committed with intent to destroy in whole or in 
part a national, ethnical, racial or religious group as such, 
(A) killing members of the group; (B) causing serious bodily or 
mental harm to members of the group; (C) deliberately 
inflicting on the group conditions of life calculated to bring 
about its physical destruction in whole or in part; (D) 
imposing measures intended to prevent births within the group; 
and, (E) forcibly transferring children of the group to another 
group.

    It goes on from there, but that is the basic essence of 
what genocide means, and it baffles me, frankly, why we are so 
reluctant to brand this wholesale slaughter of a people a 
genocide.
    The point was made earlier that Turkey has never flinched 
in its commitment to NATO. Nor has West Germany or now a 
unified Germany either, but they had the decency, Konrad 
Adenauer and others, to come forward and lay it bare, and we 
all remember what Eisenhower said--rather than torching the 
terrible death camps used in the Holocaust, preserve them 
because people will in the end say it did not happen, or will 
try to deny the severity and the egregious nature of the 
killing.
    Now we have film. There is an enormous amount of evidence. 
I have read then a number of times, but I recently reread the 
statements by Ambassador Morgenthau. If you read the statements 
of our Ambassador to the Ottoman Empire at the time, virtually 
every one of those aspects of genocide are fulfilled. So I 
would like to ask our two distinguished Members: Why this 
denial, and why are we so concerned?
    I mean, I do want, as we all do, Turkey to remain a good, 
staunch ally. But remembering the past hopefully prevents 
abuses in the future. And this is an important matter for the 
people who have suffered so much, namely the Armenians, to have 
an official acknowledgement of this terrible thing.
    Mr. Bonior. Mr. Rogan.
    Mr. Bonior. Mr. Chairman, the right of a people to remember 
their past is fundamental to recognizing that very people, and 
to deny a people that basic right of your past is to create 
enormous problems in international relations for future 
endeavors.
    That is in many ways part of the problem that Mr. Sherman 
referred to in his comments or someone did up there--I do not 
know exactly who it was--with respect to moving beyond some of 
these issues that we are now bogged down on in Azerbaijan and 
Nagorno-Karabakh and with the pipeline and all the things that 
I think Dan Burton related to. We have to get beyond that, and 
the way you get beyond it is by recognizing the sins of the 
past.
    Mr. Sherman I think eloquently stated that we have done 
that. The Germans have lived up or owned up to their 
atrocities. In our own country with respect to Japanese 
Americans, we took 120,000 of them out of their homes, out of 
their businesses, and relocated them. We have admitted as a 
government that that was the wrong thing to do, and we have 
compensated them for that.
    The Turks need to get beyond this. It was not their 
government that did it. It was, as we clearly stated or as I 
mentioned in my statement that Elie Wiesel mentioned, it was 
their predecessors. They have to face up to this.
    Why do we not face up to it as a government ourselves? I 
guess you would have to ask the State Department, who will 
testify next, but clearly the concerns that were raised by Mr. 
Burton and Mr. Faleomavaega and others with respect to our 
relationships with Turkey as an ally are at the forefront of 
our unwillingness to deal with this question.
    That inability hampers us in resolving other problems, 
whether it is Cyprus, whether it is Nagorno-Karabakh whether it 
is other concerns in the regions, and it is just an important 
step to overcome. It is the same step that the Argentinians 
have to overcome in their historical route to try and 
reconcile.
    The Chileans are going through the same thing today. I 
mean, it is something that nations have to go through, and 
Turkey has been unwilling to do it. I hope that this resolution 
will help them get there.
    Mr. Smith of New Jersey. Mr. Rogan.
    Mr. Rogan. Mr. Chairman, I think you have answered your own 
question. Who among us would want to look at films such as what 
we have just seen and have to know that our ancestors were 
responsible for that?
    Mr. Burton and others are correct in outlining throughout 
our history the horrible and egregious mistakes that our 
forefathers made in many areas of human rights. We would love 
to be able to erase that past, but we cannot. We must live with 
it, however uncomfortably.
    To deny the existence of our past would not just affect us 
from a historical perspective. It would affect us from a moral 
perspective. How other nations decide to deal with their past 
we cannot legislate from the House of Representatives, but we 
can go on record for ourselves and for our country in deciding 
whether we are going to stand on the right of moral 
correctness.
    Who among our predecessors in the Congress 50 years ago, 
would today be proud to be on record saying back then that the 
Jewish Holocaust had never happened?
    I do not want to see us today be viewed in that capacity in 
the future. We have an opportunity in this Congress to make a 
simple statement, a moral statement that this atrocity 
occurred, that our government recognizes it occurred, and we 
are not going to pretend it did not occur for geopolitical 
considerations.
    Mr. Smith of New Jersey. In the interest of time, I will 
forego additional questions and ask my fellow panelists if they 
could at least limit their questions for interests of so we can 
get to the State Department and our remaining witnesses.
    I would like to yield to Mr. Sherman.
    Mr. Sherman. I think we as a nation are not proud, but 
ashamed of slavery, the genocide of many Native American 
groups, etc., but we can be proud as Americans that we are now 
part of a country that acknowledges that.
    I know that the Turkish Government has sought to deny this 
genocide. They might in future generations find pride that the 
Turkish people had reached a point where they could acknowledge 
their past.
    That tape, Mr. Bonior, was very good, and I am glad you 
brought it to our attention. I also want to praise, for those 
who are looking for more of the work done by a constituent of 
mine, Mr. Gopian, who has put together extensive documentary 
footage of the survivors of this genocide. That has been funded 
in part by the California legislature.
    I do want to point out, and it concerns me as to why Turkey 
resists this acknowledgement. When the Holocaust was plotted by 
Germany, Germany was at the height of its power. When America 
committed its sins in slavery and the treatment of the Native 
Americans, we were powerful and well organized. When Britain 
and France launched wars of aggression and imperialism, they 
were at the height of their power.
    That tape brought to mind the fact that this genocide 
occurred at a time when the Turkish Government was in disarray, 
chaos and when there was realistic plans by then enemies of 
Turkey to seize virtually all of its territory or all of it and 
colonize it, and so one would expect that extremists might take 
power and might use the instrumentalities of a decaying 
government to commit genocide at such a time. It is a little 
bit less to admit the genocide occurred a time of chaos than to 
admit these other things that I mentioned that occurred when 
nations were powerful.
    The two panelists are advocates of this bill and appear 
before us in that capacity. We have 2 to 3 more weeks of 
legislative session. Are you here strongly arguing that we take 
this matter up and get it to the floor this session, and, if 
so, do you have a strong preference as to whether it comes up 
under a suspension of the rules or in regular order?
    Mr. Bonior. If I might, Jim, having gone through this 
before in 1987, I do not want it to come up on suspension of 
the rules. This will be a tough, tough battle, and I know that, 
but I have heard some eloquent statements from Mr. Royce today 
and, of course, always Mr. Radanovich and others, so I would 
hope this would be brought up in regular order.
    It is my understanding from what you said, Mr. Chairman, 
that the Speaker has indicated he will bring it up, and I think 
it will be wonderful. It will be wonderful to have this debate 
and to have this on the floor of the House of Representatives 
so that the world, no matter what happens on the vote, can 
learn more about this unconscionable tragedy.
    Mr. Rogan. I echo those sentiments. I feel the same way.
    Mr. Smith of New Jersey. I would like to recognize Mr. 
Tancredo.
    Mr. Sherman. Do I still have another minute?
    Mr. Smith of New Jersey. OK.
    Mr. Sherman. OK. The genocide denial is the last step of a 
genocide. After killing people, it kills the memory of the 
killing, and that is why this resolution is so important, and 
that is why I praise those who are the authors of the 
resolution.
    Thank you.
    Mr. Smith of New Jersey. The Chair recognizes Mr. Burton.
    Mr. Burton. Let me just say, and I will not take the full 5 
minutes, that I do not think anyone who watches what we saw in 
the Peter Jennings report can feel anything but empathy and 
sympathy and a great deal of sorrow for what happened, and I 
believe those tragedies did happen.
    Fifty million people were killed by Joseph Stalin in forced 
starvation in the Soviet Union. I do not remember a resolution 
in the 18 years I have been here on Russia. Mao Tse Tung and 
the Red Brigade killed 50 million people in China. Fifty 
million. Fifty million in Russia and in China. I do not 
remember any resolution. I do not remember any special training 
that we advocated for the State Department to train people on 
how to deal with those kinds of human rights atrocities.
    I talked about the American Indians, and we have heard 
about the African-Americans who were victimized here. You can 
go into what is going on today in Africa. Do not misunderstand. 
I have been on the Human Rights Subcommittee for a long time, 
and I have shared with the Committee chairman here a great deal 
of concern about places like Kashmir and Punjab and India and 
all over the place, so I do feel empathy and sympathy and 
sorrow for what happened, and I do not doubt that a lot of that 
did happen, but 3 million Turks died as well during this tragic 
time. There were forced marches for them as well. I do not know 
if we have any movies of them, but that happened as well.
    So what I said earlier I stand by, and that is we should 
have a resolution of this type, but it should be broader based 
than just the Armenian genocide. We have a remembrance day 
every year to remember those who tied in the tragedy in 1915 to 
1921 or whenever it was--I do not remember the exact dates--but 
the fact is we do have a remembrance day. America has not 
forgotten. The world has not forgotten.
    If we are going to go down this path of pointing out 
genocides then let us not focus it so narrowly on one genocide 
if that is what you want to call it. Let us look at all of 
them. Let us put them all in a resolution and let the world see 
that all of these things should stop, not just one.
    Remember, 50 million people died in forced starvation and 
famine under Stalin. Mao Tse Tung killed 50 million in his 
country. I mean, it has gone on throughout history. When you 
have wars, you have atrocities. We had My Lai. Remember that? 
We had all these things.
    You know, I do not want you to think I am unsympathetic 
about what the Armenians went through. I am very sympathetic, 
but I think we need to look at this in a broader--with a 
broader view. If we are going to talk about genocide, let us 
talk about genocide. Let us condemn it. Let us have the State 
Department be sensitized to all the genocides so that every 
aspect of genocide can be remembered and stopped in the future 
so mankind will never forget, but let us just do not remember 
one thing.
    Mr. Smith of New Jersey. Will the gentleman yield briefly?
    Mr. Burton. I would be happy to yield.
    Mr. Smith of New Jersey. As Chairman of the Subcommittee, 
it just bears noting that this Subcommittee, as well as the 
Commission on Security and Cooperation in Europe, which I also 
chair, has had in excess of 100 hearings on human rights issues 
around the world.
    We have had them obviously on Serbia, on Milosevic, on 
forced abortion and religious persecution in China. We have had 
them on Sudan. We have had several hearings on the Sudan, as a 
matter of fact.
    Mr. Burton. Yes, sir.
    Mr. Smith of New Jersey. On Rwanda, on victims all over the 
world. This is our first hearing on this genocide that took 
place 85 years ago or so, and it seems to me that we would be 
remiss, and we have had legislation passed on a myriad of human 
rights abuses around the world.
    The State Department reauthorization bill, both the last 
Congress and this, had several pieces of language that I 
offered condemning certain problems around the world, and I 
just say this as a matter to give some balance. We are not 
singling out this issue. We have had hearings on present day 
Turkey and the use of torture in Turkey as a matter of 
repression, so we have tried----
    Mr. Burton. Mr. Chairman.
    Mr. Smith of New Jersey [continuing]. To be very fair.
    Mr. Burton. Mr. Chairman.
    Mr. Smith of New Jersey. I think it is important to point 
that out.
    Mr. Burton. Let me just respond by saying I admire you, and 
you know that, and I have been with you on almost everything 
since we have been on this Committee together, but this is the 
first time that I recall where we have singled out one 
particular genocide, if you want to call it that, and asked our 
State Department and Foreign Service officers to be sensitized 
to what happened in this specific event.
    We have had a lot of them, thousands of them around the 
world, and I think if we are going to say the State Department 
should be trained in this particular area, they should be 
regarding all of the other atrocities, and that is why I said 
if this is broader based I will support it.
    Mr. Smith of New Jersey. Nothing precludes that, but let me 
just say this was the first in this century, and it really did, 
as emphasized by the often quoted statement by Adolf Hitler, 
leave an opening for those who would commit such atrocities 
later. Because somehow they felt the world would not stand up 
and would take notice, and there would be no reprisals against 
the perpetrators.
    Mr. Burton. I understand that Hitler used this as an 
example, Mr. Chairman, but let me end up by saying this. If you 
are going to go back 80 some years, let us go back to what we 
did to the Indians because if you want to see pictures and 
reports on that, just go back.
    Mr. Radanovich. If I may? We would be open, and I cannot 
speak for Mr. Bonior, but in discussions before the markup we 
would be open to including other groups.
    Mr. Burton. Then let us work together to see if we cannot 
work that out.
    Mr. Radanovich. I would be happy to.
    Mr. Burton. Thank you.
    Mr. Rogan. Mr. Chairman, may I just comment for a moment--
--
    Mr. Smith of New Jersey. Sure, Mr. Rogan.
    Mr. Rogan [continuing]. If that is within the Committee's 
protocol?
    There is one distinguishing difference between what 
happened with Stalin's Russia, and Mao's China, and America's 
slavery and Indian issue. The government of the United States 
and the House of Representatives does not deny that those 
things have occurred, but, as Chairman Smith said so eloquently 
in his opening statement, there has been a conspiracy of 
silence not just on the part of Turkey, but on the part of our 
own policymakers to the Armenian Genocide. That is the purpose 
of this resolution.
    Mr. Smith of New Jersey. Thank you, Mr. Rogan.
    Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. I am here to listen and 
learn, and from what I have gathered thus far, and I think this 
is the first time in my 3 years of Congress I believe that I 
agree with Mr. Burton.
    I think that we have to be more inclusive. We have to 
condemn genocide wherever we find it. As I sit here as an 
African-American knowing what happened, and individuals are 
saying we have acknowledged what happened to African-Americans 
and Native Americans. I know on the floor of the House not too 
long ago there was a bill asking the U.S. Congress to 
apologize--simply to apologize--to African-Americans for what 
happened to them, and the only co-sponsors on that bill were 
Members of the congressional black caucus basically. No one 
else seemed to want to step up and acknowledge what in fact did 
happen here.
    We have to stop genocide wherever we find it. We have to 
stop genocide. I think that it would be a much stronger message 
going out if in fact we do that, if we do work together, so 
that we can make sure that the message is strong saying that 
wherever we find it, whether it is in Europe, in Asia, in 
Africa or here on the shores of North America, we will not 
accept genocide. We can show a great example in this country by 
leading the way, by first acknowledging that there was in fact 
slavery on the floor of the House of Representatives, something 
that we do have control over. That would be to me the first 
example, which we have failed to do.
    We, and I believe that we must and the Armenian people must 
within their confines have Turkey acknowledge the wrong that 
they have done as far as the genocide is concerned. However, 
this is the House of the U.S. Government, and I question even 
some of the time because I think that what we should be doing 
is trying to make sure that we act in a manner to create an 
atmosphere so that genocide could never happen again and 
hostilities will end.
    That matter and I think the timing of all this--as we know, 
there are delicate negotiations that are ongoing now. We do not 
want to tip the bow because we do not want any violence any 
place else and have an outbreak again. I think our role should 
be that of a mediator.
    If we are going to talk about genocide, let us be broad. 
Let us condemn it wherever we find it. Let us go back 
throughout the history. Point it out so that no one will ever 
forget the atrocities that took place to people so it will 
never happen again in the future. But let us not do this, which 
seems to me that we are just picking a particular incident, as 
opposed to one another at a crucial time of negotiation that is 
going on to try to make a region safer and better for everyone 
that lives there.
    I yield back.
    Mr. Royce. Mr. Chairman.
    Mr. Meeks. Thank you.
    Mr. Smith of New Jersey. Mr. Royce.
    Mr. Royce. Yes. Thank you, Mr. Chairman. I would just like 
to point out for the record on this issue of whether or not we 
have condemned genocide elsewhere, very recently working with 
you, Mr. Chairman, we on the Africa Subcommittee, which I 
chair, passed a resolution. This House passed a resolution 
condemning the genocide that occurred in Sudan, recognizing the 
2 million people who had perished in the genocide in Sudan, so 
in point of fact we do take a stand in the Congress on issues 
like this, and I think it is time we set the historical record 
straight on what happened in the Armenian genocide.
    Let me say it is true that we did not add language that 
would indicate that the State Department should be directed to 
teach about human rights and ethnic cleansing, but from what I 
have seen going on in the world in places like Rwanda, it is 
pretty clear to me that we should have. I think it is about 
time we did direct the Foreign Service to have some sensitivity 
to this issue.
    This is very appropriate legislation, and I just for the 
record want to point out that we have in fact in this Congress 
passed a resolution condemning genocide in the Sudan, and so I 
do not think there is anything out of place in this resolution.
    Mr. Smith of New Jersey. Thank you, Mr. Royce.
    Mr. Royce. Thank you.
    Mr. Smith of New Jersey. Mr. Bonior, you wanted to respond?
    Mr. Bonior. Yes. I would like to respond by saying that I 
would be happy to join Mr. Meeks and others on this panel to 
author legislation that deal with some of these other issues. 
We have done some of them, as Mr. Royce has said.
    I am actually a sponsor of the apology that you referred 
to, Greg, but let us be clear. There are many other nations 
that have adopted a similar resolution on the Armenian 
genocide. We will be in the latter half of those who have, you 
know, the bottom part of the list that have not, so this has 
been addressed before by parliaments, and they have looked at 
it, and it was very clear to many of these parliaments what we 
saw in the film just a while ago, and they have decided to take 
the position that we are advocating that we take.
    So I hope people will come forward and step forward on this 
genocide, and we will be happy to work with people on other 
issues, whether it is Rwanda or it is Cambodia--we have spoken 
on Cambodia as well in this Congress--or other places.
    Mr. Smith of New Jersey. Any other Members of the panel 
like to pose a question to our colleagues?
    Mr. Tancredo. No?
    Unless you have any further concluding comments, I want to 
thank our very distinguished Members for being here and 
providing very keen insights to the Subcommittee as we move to 
markup next week. Thank you.
    Mr. Rogan. Mr. Chairman, thank you once again.
    Mr. Bonior. Thank you.
    Mr. Smith of New Jersey. I would like invite our second 
witness to the witness table, Ambassador Marc Grossman, who is 
the Director General of the Foreign Service and Director of 
Human Resources at the U.S. Department of State.
    In his previous diplomatic service, he also served as 
Assistant Secretary of State for European Affairs, the United 
States Ambassador to Turkey, and the Special Assistant to the 
Secretary of State.
    Ambassador Grossman is a graduate of the University of 
California-Santa Barbara and the London School of Economics. 
Mr. Ambassador, thank you for being here.

STATEMENT OF AMBASSADOR MARC GROSSMAN, DIRECTOR GENERAL OF THE 
           FOREIGN SERVICE, U.S. DEPARTMENT OF STATE

    Ambassador Grossman. Mr. Chairman, thank you very much, and 
thank you for that introduction. It is a pleasure to be here 
today, especially to work again with you and Members of this 
Subcommittee. I appreciate the chance to have a chance to come 
and talk about this resolution and this legislation with you.
    Mr. Chairman, if I might say first I have had the good 
fortune here over the last couple of hours to listen to all the 
testimony, and I really want to say two things before I start.
    The first is that over the past several years one of the 
things that has really come to my good fortune has been to be 
able to work with and know many, many of the Armenian-
Americans, especially those who are represented here today, and 
that has been to my great benefit and something that I am very, 
very thankful for.
    That allows me to say, second, that I certainly understand 
the spirit of this resolution. I understand why people are in 
favor of this legislation, and I would join with Mr. Burton in 
saying that I think it is exactly right for President Clinton, 
as he did on the 24th of April of this year, to say, and I 
think it is worth quoting, that ``I join Armenians around the 
world, including Armenian-Americans, in mourning the loss of 
innocent life. I also extend my sympathies to the survivors and 
their descendants for the hardships that they have suffered.'' 
I think as Mr. Burton said, anyone who watched this video would 
have exactly this same human and sympathetic response.
    Mr. Chairman, it is my job today to give you my perspective 
and the perspective of the Administration on this legislation. 
As you know from the letters that Assistant Secretary of State 
for Congressional Relations Barbara Larkin, who I am very glad 
is here with me today, sent to you last June and to the House, 
to the International Relations Committee Chairman and to the 
Ranking Member, the Administration opposes this resolution, 
just as previous Administrations, Republican and Democrat, have 
opposed this legislation in the past.
    We do this, Mr. Chairman, not out of any lack of sympathy, 
but because we believe, as President Clinton told Turkish 
President Sezer in their meeting last week in New York, that we 
oppose this resolution because he, the President, believes it 
would be counterproductive, and that is because the 
Administration believes that passage of H. Res. 398 would not 
ease our efforts to accomplish our tasks, as many of the 
Members of the Subcommittee were saying, but would actually 
make it much more complicated, more complicated in the 
Caucasus, more complicated to bring peace in Nagorno-Karabakh 
and I believe also that passage of this legislation would 
seriously harm U.S. interests in Turkey.
    As you were nice enough to say, Mr. Chairman, I have 
recently become the Director General of the Foreign Service and 
Director of Human Resources at the State Department, but I did 
have previous service in Turkey and as Assistant Secretary of 
State for European Affairs.
    I have long valued my relationship with this Subcommittee, 
and I would like to give you my perspective on this legislation 
from that view, if that might be possible, because I think my 
experience in those jobs have given me some perspective on 
Turkey and on the region.
    Let me, first of all, start with the question of our 
regional interests. I have five things I would like to try to 
convey today. First, the United States is actively engaged in 
efforts to bring a resolution to the conflict in Nagorno-
Karabakh, something that you and the Members have already 
discussed today. This peace process received a boost last year 
when the Presidents of Armenia and Azerbaijan began a direct 
dialogue. The two Presidents have made progress toward 
resolving the conflict.
    With the active encouragement of the United States, a 
policy of the President and the Administration and the Congress 
as well, we have encouraged the two Presidents to continue 
their talks, most recently on August 19 at Yalta and on 
September 7 in New York. For our part, we have taken action as 
one of the co-chairs of the Minsk Group to involve key 
international agencies like the World Bank and UNHCR so that 
when there is a peace settlement, reconstruction and 
resettlement would follow immediately.
    As your Members have said, Mr. Chairman, Turkey has a very 
important role to play in this process, and we want to do 
everything that we can to encourage Turkey and Armenia to 
normalize their relations. That is a goal we strongly support. 
In my view, and I give you my perspective, adoption of this 
resolution would undermine our efforts to put an end to strife 
that has plagued this volatile region and ensure future 
stability and prosperity.
    Second, as many of the Members here have talked about, we 
have a security relationship with Turkey that is good for the 
United States. It is good for America because it supports our 
interest in the area. As a number of Members have said, Turkey 
supported the United States in NATO throughout the Cold War. 
The United States and Turkish forces have worked together 
everywhere from Korea to Kosovo, including Desert Shield. 
Turkey was at the forefront of NATO's operation in Kosovo, and 
Turkey has now deployed almost 2,000 troops in Bosnia as part 
of IFOR, KFOR, and SFOR.
    Third, Turkey has been a base since 1991 to United States 
and British aircraft that patrol the no fly zone over northern 
Iraq. Together we contain the threat that Saddam Hussein poses 
to our shared interests, and we ensure together that Baghdad 
cannot again employ its air assets against innocent civilian 
populations in northern Iraq.
    Fourth, as one of your Members said, I think the gentleman 
from Samoa, Turkey is key to our efforts to encourage the 
parties to the Cyprus conflict to engage sensibly in the U.N. 
sponsored proximity talks that resumed just this week in New 
York.
    Fifth, Mr. Chairman, in the Middle East you and I have 
talked about Turkey's relationship with Israel and the 
Palestinians, and they have actively supported our mediation 
efforts before and since Camp David.
    So we have these five very important regional security 
interests, but we have economic interests in Turkey as well. As 
your Members have said, a critical partner in bringing central 
Asian energy resources to an energy hungry world, Turkey is one 
of the Commerce Department's leading emerging markets for 
United States exports. Turkey spends $6 billion on American 
goods and services in sectors like agriculture, aerospace, 
energy and defense.
    Mr. Chairman, you very I think rightly mentioned in one of 
your followup statements the whole question of United States 
interests in Turkey and United States interests in human rights 
in Turkey. Since you and I have talked about this a lot, may I 
say a word about that as well?
    I do not want to finish this review of what it is that the 
United States finds important in Turkey without a word about 
human rights. I think Turks know that they have much more to do 
in this area, and certainly as President Clinton noted in his 
address before the Turkish National Assembly last November, 
Turkey is making progress, but, as the President would say, 
there is still a long way to go.
    As in many of these areas, Mr. Chairman, and you and I have 
talked about this a fair amount, we continue to believe that 
the best way to seek more progress on human rights in Turkey is 
to engage the Turkish public, to engage the Turkish Government, 
to engage Turkish society. So I worry, I really worry, that the 
passage of this resolution would diminish our standing in 
Turkey, make it harder for people to listen to our arguments 
and, therefore, set back our efforts.
    I have talked a little bit in this statement so far about 
the impact of the resolution on Turkey. Let me talk for a 
moment, if you would allow me, about Armenia. Mr. Chairman, the 
Administration is committed to helping the Armenian people 
build a secure, democratic and prosperous nation, fully 
integrated into the region, into international processes and 
international institutions, and we think that a lasting peace 
in the Caucasus and economic cooperation, for example, in the 
pipeline that will bring oil and gas from the Caucasus with all 
of the neighbors is essential if Armenian is to achieve the 
prosperity that its people deserve.
    Mr. Chairman, let us talk about the main issue here, what 
it is that we are talking about historically. It seems to me 
utterly, totally and completely indisputable that the Armenian 
people suffered deportations and massacres, but scholars 
disagree on the nature of the killings and the root causes. As 
some of your Members have said, many, many Turks and Kurds died 
as well.
    I think this issue should really be in the hands of 
scholars and historians. I know you will have a panel of them 
after you are done listening to me, but I think that peace and 
stability in the region will require Turkey and Armenia, as 
well as those members of the Armenian diaspora, to jointly--
jointly--understand the events of the past, and that is why I 
have so strongly supported recent work to bring Armenian and 
Turkish experts together with academics from other countries to 
explore their common history. There are people in this room who 
have helped us do that. We have been grateful for that, and we 
need to do more of it.
    In fact, Mr. Chairman, as I was thinking about this 
statement and how it would seem to you, let me just say that I 
think in the end that this is not something that can be 
legislated or can be mandated. Rather, people dealing with 
history, no matter whose history, is something that has to be 
done by diplomats, by people to people exchanges, and by 
Members of this body, all aimed at promoting dialogue and 
reconciliation.
    Finally, Mr. Chairman, one sentence about the training of 
diplomats since that is really part and parcel of this 
resolution. One of the things I did when I read the resolution 
was ask: Do we do any of this training? Does anyone at the 
Foreign Service Institute or the National Foreign Affairs 
Training Center look into these subjects, because if we do not, 
we should.
    Let me give you a report, Mr. Chairman, on what I found. We 
have a responsibility to acknowledge the tragedy that occurred 
and to study its origins and its consequences. In a way, I 
think we ought to study this terrible period of history as 
diplomats, as legislators, really as human beings, no matter 
what label scholars give it.
    It turns out that our diplomats are already exposed very 
systematically to the lessons of this terrible time. Here is 
what we do right now at the Foreign Service Institute. The 
massacres of Armenians is covered in the Caucasus advanced area 
of studies and in Turkish advanced area of studies courses.
    Let me take the Armenian course first. Ambassador Harry 
Gilmore, who was our distinguished first Ambassador to the 
Republic of Armenia, teaches the Caucasus advanced course and 
covers this issue in his session on Armenia and Turkey. Indeed, 
I understand that Ambassador Gilmore often invites Dr. Reuben 
Adalian of the Armenian National Institute to be a speaker to 
our people at this session.
    The session discusses the historical circumstances of the 
massacres, their origins, their results and surveys the 
different views of historians and others on these events. 
Ambassador Gilmore makes reference to the massacres in other 
lectures during this course and indeed is currently updating 
the entire reader syllabus for this particular course at the 
Foreign Service Institute.
    On the Turkish side, Dr. Sabri Siari, who is the Executive 
Director of the Institute of Turkish Studies and a professor at 
Georgetown University, teaches the Turkish advanced area 
studies, and he also addresses this issue squarely, discusses 
the massacres as part of a session devoted to Turkish history 
at the time of the dissolution of the Ottoman Empire and the 
rise of nationalism.
    Mr. Chairman, as Members of the Committee have I think very 
accurately said, President Clinton has kept the tradition of 
commemorating Armenian Remembrance Day each April 24 because we 
must guard against the nightmare that such horrors could be 
repeated.
    Our human rights training, our training at the Foreign 
Service Institute and really our work for democracy and freedom 
overseas has that as a key goal. Study of these events will 
surely lead to the conclusion that the best tribute we can 
offer to the victims of tragedies is to build peace and 
stability in the region so that we can truly say never again.
    Mr. Chairman, I appreciate the chance to make that 
statement.
    [The prepared statement of Ambassador Grossman appears in 
the appendix.]
    Mr. Smith of New Jersey. Mr. Grossman, thank you for your 
statement. As you can probably tell by the bells, the 
conference report on the legislative branch appropriations is 
on the floor right now with about 9 minutes remaining, so I 
will suspend the proceedings just for a couple of minutes. We 
will return and then go to questions.
    Thank you for your patience.
    Ambassador Grossman. Sure. Thanks a lot.
    [Recess.]
    Mr. Smith of New Jersey. The Subcommittee will resume its 
sitting. I apologize for the inconvenience to witnesses and to 
those attending the hearing.
    Mr. Ambassador, thank you again for your patience. Let me 
begin with a few opening comments and then ask you a question.
    The Subcommittee has received a letter from Nobel Peace 
Prize winner Elie Wiesel urging the passage of H. Res. 398. He 
states that it is crucial that the President provide 
appropriate materials and training for all foreign service 
officers, U.S. Department of State officials and any executive 
branch employees involved with issues of human rights, ethnic 
cleansing and genocide.
    Second, we have a letter addressed once again to the 
Subcommittee by Dr. Deborah Lipstadt, a distinguished 
academician who successfully secured a libel judgment against 
Holocaust denier David Ervin, who states in her letter of 
support for adoption of this resolution, ``Denial of genocide, 
whether that of the Turks against the Armenians or the Nazis 
against the Jews, is not an act of historical reinterpretation. 
Rather, the denier's sow confusion by appearing to be engaged 
in a genuine scholarly effort.''
    Finally, I share with you the public appeal of 126 
Holocaust Judaic and legal scholars that affirm, ``The 
incontestable fact of the Armenian genocide and urge western 
democracies to officially recognize it.''
    I assume you and the entire department share my view that 
these scholars of the Holocaust and genocide are worth 
listening to on a question of the definition of genocide, and I 
was wondering if you could tell us do you agree with their 
judgment? A simple yes or no.
    Are we talking about genocide as defined in the convention? 
Sometimes there has been this reluctance to pronounce the G 
word, genocide. Are we talking about genocide when it comes to 
the Armenian situation?
    Mr. Ambassador.
    Ambassador Grossman. Mr. Chairman, first of all let me say 
that of course we would take seriously the views of the people 
whose names you read. I mean, how could anyone not take 
seriously the words of a Nobel Prize winner like Elie Wiesel? 
Of course we do.
    The second thing is that the point you make in your 
statement is a very important one. You are asking for us to do 
some training. You are asking for us to train, as you said, all 
Foreign Service officers, people who serve overseas, all 
members of the State Department and, very properly so, all of 
those people who serve overseas for the U.S. Government.
    At the end of my testimony, Mr. Chairman, I tried to give 
you a report on what it is that we do now. Maybe we do not do 
enough. Maybe we ought to talk to more people. Maybe our civil 
service colleagues at the State Department ought to get this 
training, too, but I think it is really very important that we 
do recognize that the advantages of this legislation already 
exist, in other words training, already exists.
    That is why Ambassador Gilmore worked so hard in the 
Caucasus area to teach about these terrible tragedies to people 
who are going to Armenia, and that is why in Turkish area 
studies Dr. Siari does the very same.
    Expand it. Contract it. Do more people. Do less people, 
absolutely. But I do not want to leave you thinking that we are 
not doing this at all, so in a sense we have some of the 
advantages of this legislation already taking place. What I 
tried to do is give you my perspective on the disadvantage.
    Mr. Chairman, you asked me for a yes or no answer. You know 
me well enough to know that I am not going to give you one 
because I really cannot, and that is to say that I do not 
consider myself to be the ``grand judger'' of all of history.
    I have come to two conclusions, as I say, in thinking a lot 
about this question. One, we ought to listen to the historical 
debate, and you are going to have one after me, but, two, and I 
believe this ever more strongly, Mr. Chairman. I actually think 
that this issue does not really belong to you or to me or to 
these scholars any more. It actually belongs to Turkish people 
and Armenian people, and we ought to be doing all that we can, 
as we have from the department and as I know you have and 
Members of Congress, in bringing Turkish people and Armenian 
people together to talk about these things, to share their 
history, because that is the way ultimately there is going to 
be reconciliation.
    I know that is not the greatest answer you have ever heard 
from a witness. It is too long, but I thought a lot about this, 
and I think that is really what we ought to be doing.
    Mr. Smith of New Jersey. I would strongly disagree with you 
that we should leave this issue exclusively to the Turkish and 
the Armenian people. I mean, that is why we have a Country 
Report on Human Rights Practices.
    That is why when we fought so diligently to have enacted 
the Religious Freedom Act, which initially at least was opposed 
by many in the department, including Secretary of State 
Madeleine Albright and John Shattuck, then the Assistant 
Secretary of Human Rights. They made very clear that they 
thought it would establish a hierarchy of human rights, which 
did not happen, will not happen, and was never intended to 
happen. That legislation almost died in its tracks because of 
opposition by the Administration, yet in a very bipartisan way 
we were able to pass it.
    Last week we had Ambassador Seiple here who made it very 
clear that this has helped him to mainstream religious freedom 
issues into the very worthy and laudable work of the State 
Department. So it seems to me that when we are talking about 
human rights past, present, and, regrettably, future it is 
wrong to shy away from using the ``G'' word, the genocide word, 
when it seems incontestable, according to the quote I just 
cited.
    As I said earlier to the first panel, the Convention on the 
Prevention and Punishment of the Crime of Genocide, which 
entered into force January 12, 1951, by the United Nations and 
countries simply says, ``Article 2, In the present convention, 
genocide means any of the following acts committed with intent 
to destroy in whole or in part a national, ethnical, racial or 
religious group as such,'' and then it defines killing members 
of the group, causing serious bodily or mental harm to members 
of the group, deliberately inflicting on the group conditions 
of life calculated to bring about its physical destruction in 
whole or in part, and it goes on.
    In reading historical documents after historical documents, 
which both you and I and many others have done, I think the 
conclusion is inescapable and is not even debatable. That is my 
opinion, and it is probably not shared by some, but are you in 
the Department and the Administration not in the position to 
call this a genocide?
    Ambassador Grossman. Mr. Chairman, if I might respond. Let 
me be just as honest as I can. As I have said, my job here is 
to do three things. First, to tell you that we think that this 
is an issue that ought to be left to historians. You are going 
to hear from historians after you listen to me. You can make 
your own decision. I do not know. You will have to decide what 
you want to decide.
    The second thing is you asked me here, and I am grateful 
for the invitation, to try to give you my perspective on what 
might happen if this legislation passed. I tried my very best 
in my testimony to do that.
    If I could, sir, third, just respond for a moment to the 
argument that you and I were having. I do not mean in saying 
that ultimately the solution to this problem belongs only to 
Turks and Armenians that we should not have anything to do with 
it. On the contrary. I mean, for goodness sakes, we are the 
people who ought to be facilitating these contacts, and I 
certainly do not want to be put in a position of saying----
    Mr. Smith of New Jersey. No.
    Ambassador Grossman [continuing]. That there is an 
exclusivity here. We ought not to get rid of it. We ought to 
study these things.
    What I was trying to say, Mr. Chairman, perhaps not too 
well, was that ultimately the solution to this problem seems to 
me anyway in getting Armenians and Turks together to share 
their history. You have to ask yourself and I have to ask 
myself, and you will come to one conclusion and I will come to 
another, in what way is the best service of creating that 
shared history?
    You would say pass this resolution because it is time that 
we did so, and I would argue to you that I think it would 
actually set us back, sir.
    Mr. Smith of New Jersey. You mentioned let historians 
handle this. Do you feel likewise with the Holocaust; that that 
should be their exclusive domain?
    Ambassador Grossman. No.
    Mr. Smith of New Jersey. Why? What is the difference?
    Ambassador Grossman. The Holocaust is something that there 
is a lot of experience about, that we have lots of positions, 
we have positions on it. I think there is a complete difference 
here.
    Mr. Smith of New Jersey. Other than the number of people 
killed and murdered, it seems to me, and again the evidence 
clearly shows the effect of the deportation marches, and again, 
our own Ambassador Morgenthau pointed it out, particularly in 
Chapter 24 of his memoirs, ``The Murder of a Nation.''
    Anyone who reads that and any of the other supporting 
documentation will ask, if this was not a planned genocide that 
worsened and then resulted in approximately 1.5 million people 
being butchered and killed and raped then what was it? I do not 
even want to go through the terrible tortures that he outlines 
in here, as do others; the beating of the feet, which they call 
bastinado, until the feet explode, the horrible pain that is 
suffered there and many other terrible tortures, people being 
hacked to death, starvation. I mean, we should be willing to 
call a genocide a genocide. I am just baffled by our inability 
to do so.
    I say that with all due respect because I have a very high 
regard for you, but let the record show I am truly baffled by 
our inability to call this a genocide. If it is all about or 
partially about or in any way about our current day diplomacy 
with the Republic of Turkey, that would be I think not only 
shortsighted, but wrong. We should be willing to say exactly 
what the truth is and let the consequences flow.
    We have heard, and respond one way or the other to this if 
you could, that opponents of this resolution have asserted that 
its adoption would harm U.S. commercial interests, in 
particular a pending $4 billion helicopter deal. One of the 
international competitors for the helicopter deal is a Russian-
Israeli consortium.
    Is it not true that Russia has affirmed the Armenian 
genocide and that Israel's Education Minister, later supported 
by Israel's Justice Minister, supports teaching the Armenian 
genocide in Israeli public schools? Has the government of 
Turkey sanctioned Russia, the Israelis, Belgium, France or any 
other firms whose governments have acknowledged in the same 
fashion the Armenian genocide, which we are purporting to do 
with this resolution? If not, why should we expect them to take 
action against U.S. firms?
    Ambassador Grossman. Mr. Chairman, let me respond to both 
of those questions. First let me talk for a minute about the 
helicopter deal. It is something you and I have discussed 
publicly and in your office. Where we stand at the moment is 
the Turks have selected Bell Textron, an American company, to 
negotiate a contract with for the purchase of these 
helicopters. We are glad of that, and we want these contract 
negotiations to go along.
    We are not in a position yet of being able to rule one way 
or another on a license for export because there is no contract 
yet. As I have reported to you, if we take that decision or 
when we take that decision, because I would like there to be a 
contract someday, all of the issues that involve arms sales 
with the United States, including issues of human rights, will 
certainly be taken into account.
    The second part of your question was about other statements 
from other countries and would that have some effect. I admit 
to you first off that I do not have the faintest idea about 
Russian statements. I had not heard about that, but I do know 
about some of the others.
    For example, I too read and was very interested to read 
what the Israeli Minister of Education had said, but I think it 
is interesting and worth pointing out, Mr. Chairman, that right 
after he said it, if I can just read here, the Israeli Foreign 
Minister, David Levy, immediately stated that the Ministers 
spoke only for themselves, and if I could quote, ``Levy 
reiterated the official Israeli position that events must be 
studied and discussed by historians, not politicians and 
diplomats.''
    So I think like in a lot of countries perhaps there are 
different views on this, but I would imagine if I was a Turkish 
government official I would be interested in what the Foreign 
Minister of Israel had said, which is something more or less 
along the lines of our position.
    Mr. Smith of New Jersey. Frankly, I do not think Elie 
Wiesel falls into the category of politician or diplomat.
    Ambassador Grossman. No. No, but you had quoted to me the 
Minister of Justice and Minister of Education of Israel.
    Mr. Smith of New Jersey. Right.
    Ambassador Grossman. I was just trying to respond to you 
that they had said that. I do not deny it, but I just wanted to 
give you the information that the Foreign Minister of Israel 
had had a different view and I think speaks for his country.
    The answer to your question about whether Turks would 
sanction Israel I do not think really comes up because the 
Israel position in this case, Mr. Chairman, is very close to 
ours.
    Mr. Smith of New Jersey. Let me just ask you with regard to 
you mentioned Nagorno-Karabakh and others. When I offered and 
was prime sponsor of the Humanitarian Corridors Act, which in 
this room we had a very vigorous debate about. Thankfully it 
won, although it was vetoed, but did get passed when 
Congressman Porter put it onto an appropriations bill, and yet 
it has been waived, to the best of my knowledge, each and every 
year, even though we are talking about the provision of 
medicines and other humanitarian articles that could save 
suffering people and could extend our ability to help because 
obviously when you take a more circuitous route of getting 
those materials there, the medicines and the food cost more.
    That to me seems to be a profoundly unfair act on the part 
of the Turkish Government. It is like if an ambulance comes, 
you just look the other way, and you do not allow it to go 
through your street. That is what it looks like to me.
    I was amazed at the opposition we got from the 
Administration on that one as well, although eventually it was 
signed into law as part of the appropriations bill, yet it is 
being waived every year.
    You know, you begin to see a pattern. Now we are just 
talking about standing up and doing what many other countries 
have done and suggesting it is time to just call a genocide a 
genocide. Again, the plain meaning of the U.N. convention seems 
to clearly indicate that this is nothing other but than a 
genocide. I am again very disturbed and discouraged by the fact 
that we are unwilling to call it that.
    Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman, and thank you for 
having this hearing. I have to apologize, Mr. Ambassador. I had 
an event with the Prime Minister of India, so I could not come 
until now, but I did read your written statement, and my 
questions are with regard to your written statement.
    Ambassador Grossman. Yes, sir?
    Mr. Pallone. I notice that you are very careful in your 
written statement not to utter the word genocide. You use the 
word massacre, things of that nature, and are very careful not 
to use the word genocide.
    Two questions on that. I mean, first of all, have you been 
instructed by the Administration specifically not to use that 
term? Second, is that a political decision not to use that 
term?
    Ambassador Grossman. I am going to try to answer your 
question the best I can.
    Mr. Pallone. Sure.
    Ambassador Grossman. I do not think I have been instructed 
not to use the word genocide. I think, Mr. Pallone, that I know 
that it is the Administration's policy not to call it genocide 
and so as an Administration witness and as a representative of 
the Administration I follow the lead of the President.
    I think, sir, as Mr. Burton did and others on the Committee 
referred to the President's statement on the 24th of April, I 
think some in this room would say that he was also very careful 
not to use the word genocide, so I follow the President there, 
sir.
    Second, in terms of whether it is a political decision, I 
do not know. I suppose in it is the sense that it is a decision 
that was made by the Administration, and I am a representative 
of that Administration. I apologize. I know that is not really 
what you are looking for.
    Mr. Pallone. No, no. That is fine, but I guess the reason I 
ask the second question about the politics is because in your 
statement before you get to talk about the genocide or, as you 
call it, the massacres you go through a litany of several 
political points about United States relations with Turkey, 
Turkish economy trade, military security----
    Ambassador Grossman. Right.
    Mr. Pallone [continuing]. And all that, and it is hard for 
me not to come to the conclusion that the reason why the 
Administration and you as the representative are not using the 
term genocide is because they are afraid that if they do use it 
that somehow that is going to jeopardize our relations with 
Turkey and is somehow going to hurt us economically or from a 
military point of view. It is not based on the record, but 
based on the politics. That is what I am asking.
    Ambassador Grossman. Fair enough. I mean, one of the things 
in trying to respond to Chairman Smith, and when you say not 
based on the record, I mean, if you put me in the position of 
saying that means that I am not going to make a decision about 
whether this was or was not a genocide and I say that it is 
something you ought to listen to historians about, yes, that is 
true. Yes, sir. Absolutely.
    Mr. Pallone. But you see, my problem is that I think that 
what you are telling us is the reason the Administration does 
not use the term genocide and the reason we should not use the 
term genocide by passing this resolution is because you are 
fearful that it is going to hurt us economically or militarily.
    Ambassador Grossman. No. I am not fearful of that. I want 
to be clear about what we are talking about here. I believe 
that we have a relationship with Turkey which is good for the 
United States and the region. We also have some very important 
interests in Turkey and in the way Turkey is going to change, I 
hope, as Mr. Smith and I have always worked hard on in terms of 
human rights.
    What I fear, Mr. Pallone, is that if you pass this 
resolution we will have none of the advantages, since we are 
already doing the training, and we will have all of the 
disadvantages in the sense that in the Turkish public, in 
Turkish economic life, in Turkish security life, the views of 
the United States will be diminished, and we will not be able 
to pursue our interests, sir.
    Mr. Pallone. But the problem that I know I have and I know 
the Chairman has as well is that what we think we are doing 
here today is basically recognizing a historical fact by 
passing this resolution.
    Ambassador Grossman. I understand.
    Mr. Pallone. A fact of, you know, insidious, purposeful 
genocide and that by our government, our Administration, coming 
in and saying well, you cannot do that because that is going to 
hurt our relations with Turkey, then the issue of the genocide, 
the issue of intentional massacres, the issue, the historical 
fact of this gross human rights violation, is then put aside 
because of economic or military considerations, and that 
bothers me.
    I am simply asking you if that is what you want us to do. 
Are you saying to this Committee look, I know you may want to 
pass this because you believe this occurred, but do not do it 
because it is going to have negative impact on our foreign 
policy. Is that not what you are saying to us?
    Ambassador Grossman. That is close. Absolutely.
    Mr. Pallone. OK.
    Ambassador Grossman. Yes, sir.
    Mr. Pallone. Well, you see, that is the problem because I 
do not think that is what we are supposed to be doing, in other 
words.
    I have a question, Mr. Chairman, but historically everyone 
knows that if you deny human rights violations and genocide for 
geopolitical diplomatic reasons then it will occur, and you 
only encourage it.
    I mean, I do not think there is anybody who would suggest 
that if this Administration, you know, at the time--I guess it 
was the Roosevelt Administration during World War II--had 
intervened and had spoken out about the Holocaust and demanded 
that Jews not be sent to the gas chambers that we would have 
had a positive impact on it not happening or not happening as 
much as it did. The same is true for Bosnia and so many other 
cases.
    So our problem here is that we just find it a terrible 
policy for the Administration to come in here and tell us that; 
that if we believe that this truly was genocide that we should 
not recognize it as a fact because it might harm our relations 
with Turkey.
    I believe the opposite. I do not think any country--you 
know, I think the opposite would happen. If we demand action 
and demand recognition, then the Turkish Government, like any 
government that had to deal with this fact, would ultimately 
have to deal with this, and it would be a positive thing.
    That is all I am saying. If you would like to react to it, 
that is fine. Obviously you do not agree.
    Ambassador Grossman. Well, I say with all due respect, Mr. 
Pallone, I think you have given a very, very eloquent 
presentation of why people are interested in passing this 
resolution.
    I have not given as eloquent a response, but I was invited 
here to give you my perspective. My perspective is with great, 
great respect, sir, that we do have a disagreement here because 
my view is that if you pass this resolution the consequences 
actually will be the opposite of what you want.
    You will not make Turkish people any more open to dealing 
with their past. You will not make Turkish people any more open 
to their human rights challenges. You will not make Turkish 
people any more interested in helping the United States.
    I mean, you are shaking your head--we just are going to 
disagree with that, and I just----
    Mr. Pallone. And I am going to stop, Mr. Chairman, because 
I want to hear the rest of the panel, but I just would say to 
you in response to that there is no indication historically, 
and I do not care how far back you go, to ancient times, 
medieval times, modern times. There is no basis for that.
    Every time that a great power has refused to exercise its 
influence to say to a country that they should not be violating 
human rights, all that happens is that it just continues and 
gets worse. Every time you stand up and say no, you should not 
do it and we know you are doing it and we recognize that you 
did it, that has had a positive outcome in the long term.
    I understand what you are saying, and I appreciate your 
candor, but I also think that there is just no historical 
evidence for that.
    Thank you.
    Ambassador Grossman. Thank you.
    Mr. Smith of New Jersey. Mr. Ambassador, let me ask one 
final question.
    Ambassador Grossman. Yes, sir?
    Mr. Smith of New Jersey. I am sure you have read Ambassador 
Morgenthau's story and probably read it more than once. Do you 
believe it is accurate, his detailed explanations or 
recounting, his knowledge as to what happened?
    Ambassador Grossman. I certainly believe that Ambassador 
Morgenthau wrote what he believed, yes.
    Mr. Smith of New Jersey. Was there anything in the State 
Department's records that would contradict any of the 
information that we believed to be the truth and reality about 
the genocide?
    Ambassador Grossman. I do not know the answer to that 
question, Mr. Smith. I mean, I should, but I do not.
    Mr. Smith of New Jersey. OK.
    Ambassador Grossman. That is a fair question. I do not know 
the answer to it.
    Mr. Smith of New Jersey. If you could get back to us, that 
would be very helpful----
    Ambassador Grossman. I would be glad to try.
    Mr. Smith of New Jersey [continuing]. If there was any kind 
of----
    Ambassador Grossman. Sure.
    Mr. Smith of New Jersey [continuing]. Contrarian view 
within the department at the time.
    Ambassador Grossman. Sure.
    Mr. Smith of New Jersey. Based on what I have looked at, I 
have not found it, but I have not been able to get into the----
    Ambassador Grossman. Fair enough.
    Mr. Smith of New Jersey [continuing]. Archives the way you 
I am sure can.
    Ambassador Grossman. Yes.
    Mr. Smith of New Jersey. I just would ask unanimous consent 
for the record to include Chapter 24 into the record, 
Ambassador Morgenthau's story, and the subtitle for that 
chapter is The Murder of a Nation, because certainly it is 
very, very disturbing reading, as I mentioned earlier before.
    As a matter of fact, there were a number of points made 
that, for example, before the caravan moved the women were 
sometimes offered the alternative of becoming Muslims. Even 
though they accepted the new faith, which few of them did, 
their earthly troubles did not end. The converts were compelled 
to surrender their children to so-called Muslim orphanages with 
the agreement that they should be trained as the doubt 
followers of the prophet. It goes on to say that they obviously 
had to give up their own husbands in order to take on a new 
husband.
    Every aspect, it would seem, is there. I do not want to 
belabor this point, but the clear meaning of the definition of 
genocide as articulated in Article 2 of the Convention seems to 
have been fulfilled and then some, I say with sadness, by the 
Armenian genocide. We ran into this problem, as you well know, 
when I raised very serious questions with regard to the Sudan, 
with regard to the killing of the Hutus and the Tutsis in 
Rwanda, why when there was a coordinated, all out effort to 
exterminate we could not call it a genocide.
    Maybe you could answer us. What is the consequence of 
euphemistically calling this ``the tragedy'' or some other less 
than availing term? What is the consequence, legally or 
otherwise, if we do indeed say this was a genocide?
    Ambassador Grossman. I cannot speak certainly to that. I 
would be glad to help see if I can get some help here. I 
certainly cannot speak to the question of what the legal 
implication is. I mean, that is something I think someone else 
would have to speak to----
    But if I could go back to the answer I gave to Mr. Pallone, 
I think the consequences are, Mr. Smith, that the things that 
you and I have been working so hard to achieve in Turkey over 
the years we have been working together become harder to 
achieve. We will not make the same kind of progress on human 
rights. We will not make the same kind of progress in opening 
up Turkey. I do not believe we will make the same kind of 
progress between Turkey and Armenia.
    These are the things that you and I want. As I say, Mr. 
Pallone, we just have a disagreement here.
    Mr. Pallone. If the gentleman would yield just for a 
second? You see what you just said? You said that by denying 
human rights we are going to prevent human rights violations. 
It is not true. It does not work that way. You cannot say to me 
OK, by saying that the genocide not occurred or not calling it 
that, that somehow that is going to improve human rights in 
Turkey. How can it be? How can it be that by denying the 
historical past of human rights violations that you encourage 
the Turkish Government to improve the human rights record? It 
does not work that way.
    Ambassador Grossman. I mean, I am glad to continue this.
    Mr. Pallone. Sure.
    Ambassador Grossman. I lived 6 years in Turkey. I 
represented the United States of America for 6 years in Turkey 
in various ways. My perspective on your point, sir, is I would 
never say that denying human rights will bring you more human 
rights.
    What I am trying to say, not very well, is the following. 
If we legislate the title, the name, of this terrible tragedy--
you have a view and I have a view, but let us leave that 
aside--if we legislate this, the ability of the United States 
of America to influence the public in Turkey for more democracy 
and more freedom goes down. I do not expect----
    Mr. Pallone. I understand what you are saying, but I do not 
see any reason historically to accept that. It is always the 
opposite.
    Ambassador Grossman. Well, I mean, Mr. Smith was nice 
enough to ask me to give you my perspective.
    Mr. Pallone. No. I appreciate your candor. I think it is 
important that you state what you are stating, and I appreciate 
that.
    Ambassador Grossman. I am doing the best I can.
    Mr. Pallone. I do not see any basis for it. I never have 
historically.
    Mr. Smith of New Jersey. If I could just, Mr. Ambassador, 
make it very clear that----
    Ambassador Grossman. Yes, sir?
    Mr. Smith of New Jersey [continuing]. I have great respect 
for the Turkish people. It is when the dictatorship, past, 
present and, regrettably, there may be dictatorships or there 
are likely to be dictatorships into the future denies this 
genocide.
    The people who have the guns and have the secret police and 
have the torturers, when they commit egregious human rights 
violations we should be unflinching in our efforts to say that 
is a crime against humanity. That is a genocide if it rises to 
that bar, which I think this clearly does.
    That means no disrespect to the average Turkish person for 
whom I have the highest respect. It is their leadership that 
has committed these atrocities and it was those people who 
carried guns and bayonetted women and children and left them 
for dead during these forced marches.
    We have obviously a good relationship with Japan, but we 
make no bones about raising serious human rights abuses that 
were committed during World War II and to hold those folks 
accountable. We did the same thing with Germany, and they are 
perhaps one of our greatest allies in NATO, and yet thankfully 
they themselves were forthcoming on that as well.
    I want this record to be very clear that I have a great 
respect for the Turkish people, but these atrocities that were 
committed in the past that were egregious, ongoing, pervasive, 
well coordinated genocide, we should not shrink from calling 
them such.
    I would hope that the Administration would not oppose this 
resolution, maybe assert neutrality, but certainly do not 
oppose it. We need to have honest dialogue. Friends do not let 
friends commit human rights abuses, past or present. I think we 
should be willing to say it.
    If you have anything further you would like to add, 
Ambassador? I thank you for coming.
    Ambassador Grossman. No, sir.
    Mr. Smith of New Jersey. Again, I have deep respect for you 
as well, and we have worked together on so many human rights 
issues around the world, particularly in Turkey.
    Thank you.
    Ambassador Grossman. Thank you, sir.
    Mr. Smith of New Jersey. I would like to invite to the 
witness table our third panel.
    Dr. Robert Melson is a professor of political science and 
former acting director of the Jewish studies program at Purdue 
University. A specialist in ethnic conflict and genocide, Dr. 
Melson studied at MIT and Yale. He is the author of the award 
winning book ``Revolution and Genocide: On the Origins of the 
Armenian Genocide and the Holocaust'' published by the 
University of Chicago Press.
    Gunduz Suphi Aktan is presently an instructor of Bilgi 
University in Istanbul. During his 30-year career in the 
Turkish Foreign Service, Ambassador Aktan served as the 
Ambassador of the Republic of Turkey to Japan and Greece and as 
a permanent representative of Turkey to the United Nations in 
Geneva. During his tenure at the United Nations he was also 
president of the U.N. Trade and Development Board.
    We will next hear from Dr. Justin McCarthy, who is a 
professor of history at the University of Louisville. A 
specialist in social history and historical demography who 
concentrates on Middle Eastern and Ottoman history, Dr. 
McCarthy is the author of the forthcoming book, ``The Ottoman 
Peoples and the End of Empire.''
    Finally we have Dr. Roger Smith, who is a professor of 
government at the College of William and Mary where he teaches 
the comparative study of genocide. A co-founder and past 
president of the Association of Genocide Scholars, Dr. Smith 
recently edited the book ``Genocide: Essays Toward 
Understanding Early Warning and Prevention.''
    Dr. Melson, if you could begin.

STATEMENT OF ROBERT F. MELSON, PROFESSOR OF POLITICAL SCIENCE, 
                       PURDUE UNIVERSITY

    Mr. Melson. Chairman Smith and Members of the Committee, 
when I was 10 years old in 1947----
    Mr. Smith of New Jersey. Doctor, would you press the 
button? Thank you.
    Mr. Melson. Is that it? Thanks.
    When I was 10 years old in 1947, my family and I immigrated 
from Poland to America, where we found a home and a sanctuary 
from the Nazis' attempt to exterminate the Jews of Europe.
    In 1965, I did field work for my doctorate in political 
science in Nigeria the year before that great country 
disintegrated in civil war, massacre and what the United 
Nations calls a genocide in part. Some of the people I had 
interviewed for my thesis were killed in what came to be known 
as the Biafrin War.
    I mention these things not to call attention to myself, but 
to tell you that I have had some personal experience with 
genocide. Hence, when I started to research the Armenian 
genocide in the early 1970's in order to compare the Holocaust 
to that earlier disaster, I recognized a familiar pattern. The 
two genocides were, of course, not equivalent, and they 
differed in significant ways that were also enlightening for 
our understanding of genocide. I will return to this point 
presently.
    Let me now turn to the business at hand. My reading of 
Resolution 398 is that it calls on the President, one, to 
provide Foreign Service officers and others concerned with 
American foreign policy with training and materials concerning 
the Armenian genocide, and, two, it urges the President in his 
annual message commemorating the Armenian genocide to 
characterize the disaster frankly and openly as a genocide, not 
as a massacre or as a tragedy or by any other euphemism.
    I firmly support both parts of the resolution on scholarly, 
moral and strategic grounds. In the time allotted me, I wish to 
briefly comment on three points. First, the Armenian genocide 
was the first genocide of the modern era and set a precedent 
not only for the Holocaust, but for most contemporary 
genocides, especially in the Third World and in the current 
post Communist world. Hence, it is essential that it be studied 
by American Foreign Service officers, as well as others 
involved in the shaping of American foreign policy.
    Second, in order to understand the phenomenon of genocide, 
members of the Foreign Service community need to study the 
Armenian genocide and America's reaction to it. One of the best 
places to start are the records of the State Department itself, 
especially Ambassador Morgenthau's story. Ambassador Henry 
Morgenthau was, of course, the American ambassador to the 
Ottoman Empire at the time of the genocide.
    Third, I have often heard it argued that despite the 
occurrence of the Armenian genocide and the Turkish 
Government's continued denial of it, the United States should 
keep a low profile on the subject for fear of hurting Turkish 
sensibilities and undermining American strategic and economic 
interests in the area. Hence, neither the President nor any of 
his representatives should use the term genocide when referring 
to the mass murder of the Armenians.
    Let me start with the first point. When confronted with 
mass death and forced deportations, the contemporary world 
community has often reached for the Holocaust as a paradigmatic 
case of genocide in order both to make sense and to condemn 
current events. In my longer deposition, I suggest that 
although the Armenian genocide resembles the Holocaust in 
significant ways, it is a more accurate model for current 
ethnic disasters in the Third World and the post Communist 
world than is the Holocaust.
    The Armenian genocide and the Holocaust are the 
quintessential instances of total genocide in the twentieth 
century, what the United Nations calls genocide in whole rather 
than in part. In both instances, a deliberate attempt was made 
by the government of the day to destroy in part or in whole and 
ethni-religious community of ancient provenance that had 
existed as a segment of the government's own society.
    In both instances, genocide was perpetrated after the fall 
of an old regime and during the reign of a revolutionary 
movement that was motivated by an ideology of social, political 
and cultural transformation. The old regime for Germany was the 
German Empire. The old regime for the Ottomans was the regime 
of Abdul Mohammed II, and in both cases a revolutionary 
movement, the Nazis in one case and the Young Turks in the 
other, committed genocide during a world war.
    These may be said to account for some of the basic 
similarities between the two genocides, but there are 
significant differences as well. The Armenian genocide also 
differs from the Holocaust in that the Armenians, unlike the 
Jews, were living on their ancestral lands when they were 
deported to their deaths, and the ideology motivating the Young 
Turks, the perpetrators, was not a totalitarian racism, but a 
version of integral or organic nationalism.
    The mix of ethnic conflict over land driven by murderous 
nationalism should be familiar to any student of the 
contemporary Third World or post Communist Yugoslavia. Think of 
Bosnia. Think of Kosovo.
    Thus, following the policy recommendation of Resolution 
398, State Department offices and others involved with making 
foreign policy would do well to study the Armenian genocide for 
lessons bearing both on the Holocaust and on more current 
disasters.
    Turning to the second point, when Turkey entered the first 
world war on the side of Germany against the Entente, the 
United States was still neutral, and Henry Morgenthau was the 
American ambassador during some of the worst moments of the 
genocide. He received information from American Consuls like 
Leslie A. Davis from Harput, as well as from missionaries and 
other American citizens.
    On the basis of this information, he concluded that the 
Ottoman government of the day had decided to exterminate the 
Armenians, and he tried to intercede on their behalf, but to no 
avail. At one point he had a discussion with Enver, the 
Minister of War, and he said to Enver ``I know terrible things 
have been happening. Massacres have been happening all over the 
Ottoman Empire, and they are probably happening out of your 
sight. You probably do not know about these things. It is local 
people who are doing these things.''
    As he says on pages 351 and 352 of his story, ``Enver 
straightened up, and said, `nothing that happens in the Ottoman 
Empire happens without my knowing about it, without the 
Community of Union and Progress knowing about it.' ''
    That is the essence of a genocidal situation. Genocide is 
not simply atrocity. Atrocities happen in every war. Genocide 
is a state-directed intended policy to exterminate a people. 
That is what we are talking about, and that is what was 
happening here.
    Having read Ambassador Morgenthau's diary, the Foreign 
Service officer might want to consult the work of Leslie A. 
Davis, the American Consul in Harput and a direct witness to 
the events. For further research and verification, the Foreign 
Service officer need not look further than the U.S. National 
Archives and Record Administration where there is extensive 
documentation on the genocide, especially under Record Group 59 
of the U.S. Department of State, Files 867.00 and 867.40.
    Turning to the last point, which indirectly answers Mr. 
Grossman's position, allow me to speak as a proud American 
citizen, not only as a scholar of genocide. I find it 
thoroughly dishonorable that knowing what we know about the 
Armenian genocide we persist in using euphemisms like 
``tragedy,'' ``catastrophe,'' and ``massacre'' when referring 
to the mass murder for fear of offending Turkish sensibilities.
    Would we abide such behavior from a Germany that denied the 
Holocaust? Indeed, could Germany ever have evolved into the 
vibrant and powerful democracy she is today without confronting 
her past? The answers are apparent, and they should be apparent 
in our relationship to Turkey as well.
    Ambassador Grossman suggested that one of the best ways of 
resolving this issue is for Turkish and Armenian and American 
people and historians to get together and to discuss this 
issue. Well, I was one of these people who was involved in an 
Armenian, Turkish and American conference last March in 
Chicago.
    I had the privilege of participating at a conference on the 
Armenian genocide at the University of Chicago, which was 
attended by American, Armenian and Turkish scholars. We 
discussed the Armenian genocide in open fora with Turkish 
scholars, not once questioning the facticity of the genocide. 
These were Turkish scholars who were not evading the issue of 
the Armenian genocide the way it has been evaded here this 
afternoon.
    Indeed, some of their contributions concerning the ideology 
of the Young Turks was fresh and to the point. While talking to 
my Turkish colleagues, it dawned on me that one of the reasons 
they were openly and courageously researching and discussing 
the Armenian genocide, despite their government's denial, was 
because they were Turkish patriots who wished to see Turkey 
move toward a more modern, more open, more just and more 
democratic society.
    In their view, having Turkey bravely confront her past in a 
manner that Germany did with the Holocaust, South Africa did 
with apartheid, and the United States is attempting to do with 
the legacy of slavery and, I might say the destruction of 
Native Americans, would be a major step in the healing of the 
breach and the maturation of Turkey into a democratic 
civilization.
    It is of no help to my Turkish colleagues and to other 
democratic forces in Turkey nor indeed to the good name and 
honor of the United States to have the President use half 
truths and euphemisms when speaking about the Armenian 
genocide.
    Thank you for allowing me to testify, Mr. Chairman and 
Members of the Committee.
    [The prepared statement of Mr. Melson appears in the 
appendix.]
    Mr. Smith of New Jersey. Dr. Melson, thank you very much 
for your testimony.
    Ambassador Aktan.

 STATEMENT OF AMBASSADOR GUNDUZ SUPHI AKTAN, FORMER AMBASSADOR 
                   OF THE REPUBLIC OF TURKEY

    Mr. Aktan. Thank you very much, Mr. Chairman. I thank you 
for inviting me to this hearing. It is a privilege and honor 
for me to address this Subcommittee in my personal capacity as 
a private citizen, although the topic is not a pleasant one.
    The question before us is too complex to treat in 5 
minutes. Therefore, I will not dwell on its historical aspects. 
Let me stress, however, that the Turkish people firmly believe 
that what happened to the Armenians was not genocide. It was a 
relocation to other parts of the Ottoman Empire of only the 
eastern Anatolian Armenians away from a war zone in which they 
were collaborating with invading Russian armies with the aim of 
creating an independent state of their own in areas where they 
were only a minority by ethnically cleansing the majority 
Turks.
    This tragedy occurred during the war between the Ottoman 
Empire and Tsarist Russia, which was greatly aided by the 
Armenians, a long inter-communal struggle between Armenian 
irregulars, revolutionaries, and defending Muslim civilians, as 
well as a thoroughly disorganized relocation of the Armenian 
population under the exceptionally difficult conditions of the 
day. As a result, many Armenians were killed, but many more 
Muslims and Turks perished as well.
    The Turkish people will be deeply offended by this 
resolution, which practically accuses them of being genocidal. 
They will also find it disrespectful of their unmentioned 
millions of dead.
    Were it to be adopted, I am afraid, it would have two 
immediate effects, one on Turco-Armenian relations, the other 
on Turco-American relations. Under the tremendous pressure of 
public opinion, the Turkish Government will be compelled to 
toughen its foreign policy toward Armenia.
    Turkey earnestly rejoiced at Armenia's independence after 
the demise of the Soviet Union. As a token of friendship, the 
Turkish Government provided wheat to the Armenian people, who 
were then in dire need. I feel personally gratified to have 
played a modest part, together with Mr. Libaridan, in 
accomplishing this Turkish gesture of fellowship.
    Turkey integrated Armenia into the Black Sea Corporation 
Council, although it is not a littoral state. Despite the so-
called embargo, Turkish Governments have deliberately turned a 
blind eye to the porous nature of the common borders through 
which vital provisions reach the Armenians.
    Armenia, however, maintains its occupation of 20 percent of 
the Azerbaijan--, creating 1 million refugees, with the help of 
Russian protection purchased at the cost of its newly gained 
independence.
    Now by insisting on the recognition of the genocide, the 
Armenian leadership and the diaspora will finally silence the 
few remaining voices favorable to them in Turkey. This would 
effectively result in sealing the borders. Given the situation 
in Armenia, this attitude of the Armenian Government is akin to 
suicide.
    However, I am personally more worried about Turkey's 
relations with the United States. A strategic cooperation has 
been developed over the decades with great care and patience on 
the basis of mutual interest. The first casualty of this 
resolution would be Cyprus, for the United States will 
immediately lose its honest broker status in the eyes of the 
Turkish public opinion, and Mr. Moses, the President's special 
representative, may no longer find any interlocutor.
    Turkey and the United States closely cooperate in the 
Caucasus, especially in the field of energy, which has recently 
acquired great importance due to the rapidly increasing oil 
prices. In the region where Armenia is situated, the potential 
for cooperation with a country that considers Turks genocidal 
will be bound to remain severely limited.
    But above all, our cooperation on Iraq will inevitably 
suffer. The support for American policy in northern Iraq, 
already slim, will dwindle immediately for the Turkish people 
already feel enough effects of the economic embargo with Iraq 
which costs them billions of dollars.
    Why continue to make this sacrifice? This would mean the 
military base at Incirlik would no longer be used by United 
States planes, war planes, to bomb northern Iraq. Without air 
power to deter Saddam Hussein from regaining the control of the 
region, this could very well be the end of the INC.
    Mr. Chairman, the crucial question is why are the Armenians 
not content with the word tragedy or catastrophe or disaster 
and insist on genocide? I am not a jurist, but I served as 
Ambassador to the United Nations section in Geneva where 
questions related to humanitarian law or the law of war are 
also dealt with.
    In connection with the former Yugoslavia, we thoroughly 
discussed the Genocide Convention. What determines genocide is 
not necessarily the number of casualties or the cruelty of the 
persecution, but, as you said several times, the intent to 
destroy a group.
    Historically, the intent to destroy a group, a race, has 
emerged only as the culmination of racism as in the case of 
anti-semitism and the Shoah. Turks have never harbored any 
anti-Armenianism. Killing even of civilians in a war waged for 
territory is not genocide. The victims of genocide must be 
totally innocent. In other words, they must not fight for 
something tangible like land, but be killed by the victimizers 
simply because of their membership in a specific group. 
Obviously both Turks and Armenians fought for land upon which 
to build their independent states. I think this dispute may go 
on forever. We must find a way out.
    Therefore, I would propose the following. Since genocide is 
an imprescriptible crime, the Republic of Armenian can have 
recourse to the International Court of Justice and may, 
therefore, ask the Court to determine according to Article 9 of 
the Convention whether it was genocide. But, I know that they 
cannot do it. They do not have a legally sustainable case. That 
is why they seek resolutions which are legally null and void.
    One last point, Mr. Chairman. I would humbly suggest that 
all the references to Great Britain in the text of the 
resolution be dropped, for in July of this year the British 
Government declared in the House of Lords that, ``In the 
absence of unequivocable evidence to show that the Ottoman 
administration took a specific decision to eliminate the 
Armenians, the British Governments have not recognized the 
event of 1915 and 1916 as genocide.''
    Let us not forget that Great Britain was occupying power 
after the first world war, and the Ottoman archives were at its 
disposition.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Ambassador Aktan appears in the 
appendix.]
    Mr. Smith of New Jersey. Mr. Ambassador, thank you for your 
testimony.
    Let me now ask Dr. McCarthy if he would make his 
presentation.

STATEMENT OF JUSTIN MCCARTHY, PROFESSOR OF HISTORY, UNIVERSITY 
                         OF LOUISVILLE

    Mr. McCarthy. I do not know if I can be heard or not. Thank 
you, Mr. Chairman. I appreciate your invitation and the 
invitation of the Committee, even though I know we have not 
always agreed on these issues.
    I would like to ask if I could address a couple of things 
that have come up as well as summarize my statements, and if my 
whole statement could be read into the record.
    Mr. Smith of New Jersey. Without objection. Your statement 
and that of all of our witnesses will be made a part of the 
record.
    Mr. McCarthy. Thank you.
    A number of times this afternoon it has been alleged that 
the Turkish Government should simply accept what has been 
called the history of genocide. The one thing I wish to say 
about that is it assumes Turkey is simply a government that has 
a policy of hiding something; that it is a government that has 
decided for one reason or another not to admit something that 
their ancestors have done.
    I want to state that there are millions of men and women in 
Turkey who remember their parents' and grandparents' accounts 
of the terrible events of World War I. These accounts are very 
similar to the accounts that are told by Armenians, so similar, 
in fact, that if you were to change the names you would not be 
able to tell which was which.
    Like the Armenians, Turks were killed by their enemies. In 
their case, the enemies were often Armenians. Like the 
Armenians, the Turks suffered forced migration in which great 
numbers died. The Turks and other Muslims lost nearly 3 million 
souls, and, like the Armenians, they have not forgotten those 
losses.
    The difference between the Germans and admitting what the 
Germans have done, and the Americans and admitting what the 
Americans have done to American Indians and others and the 
Turkish position is very simply that the Turks do not believe 
that they had done it.
    Not only that, but they primarily remember the evils that 
were done to their own people, just as the Armenians do, 
because people have a tendency when they remember the past or 
when they tell their children about what was done is not to 
admit what crimes they have committed, but only to talk about 
the crimes that have been done to them.
    I believe that this resolution attacks one of our allies 
without affording those allies a chance to tell their own side 
of history. I believe that the Turks will not receive this 
well, but I do not particularly concern myself with all of the 
issues of how the Turkish Government would act, although I 
believe those fears are probably real.
    What I am concerned about is the way in which the Turks on 
the street, the ordinary Turks, as well as the government, will 
react to this. I am concerned because I do not believe that the 
statements in the document are historically true.
    For example, House Resolution 398 quotes from General 
Harbord, an American General admittedly, but it does not 
mention that General Harbord has been proven to have lied and 
to have suppressed evidence from his own staff that 
demonstrated that Armenians had engaged in mass murder of Turks 
and Kurds.
    Adolf Hitler has been quoted numerous times today as if 
Adolf Hitler needed any help from Middle Eastern history before 
he could put in place his evil plans. He has been quoted as if 
there is universal agreement about what he said when in fact 
there is not. In fact, there is much scholarly debate about 
what Adolf Hitler supposedly said.
    These things have to be debated, but the resolution ignores 
the need for this debate. The statement that 2 million 
Armenians were deported and 1.5 million were killed is a 
bizarre inflation. Immediately after the war, Armenian 
representatives estimated that approximately 600,000 Armenians 
died in the period, a number that I for very different reasons 
agree with. Now, the figure seems to have risen to 1.5 million 
dead, which is slightly more than the entire Armenian 
population of Ottoman Anatolia. Where do these figures come 
from? They are surely not the result of historical inquiry.
    The Turkish courts martial that convicted members of 
wartime governments of the Ottoman Empire are quoted. In fact, 
they were not, as was stated earlier, courts martial convened 
by the Turkish Republic and government. They were convened by a 
quisling government set up under the watchful eye of the 
British and other allies who occupied Istanbul and that were 
interested in only making them happy. This was not a Turkish 
Republican court, unlike what was said. They were the enemies 
of the Turkish Republic. Indeed, the witnesses had no right to 
defend themselves. There was no evidence taken. We could go 
into this for quite some time, but I will not go into the 
details because it is a historically contentious area, but I 
will say this. If the resolution was going to quote this court 
that was trying to make the British happy, at least it could, 
also state that the British themselves, who had control of the 
archives, control of the government, and sent their people in 
to search through everything they could find for evidence of an 
Ottoman force against the Armenians, for evidence of an Ottoman 
order to kill the Armenians, the British could find nothing and 
had to admit that they could not do so.
    Now, when these things are not stated this gives a more 
than one sided story. The resolution states that the national 
archives of Turkey contain records about these courts martial, 
which is true, but the resolution might also add that these 
same archives contain voluminous evidence of Armenian actions 
against Muslims. You cannot quote from the archives in one 
place and not mention other documents in the archives.
    Also, it is very difficult to accept statements such as 
those of the allied governments of 1915. If you say those 
things, you should also mention that these governments were at 
war with the Ottoman Empire. You should mention that allied 
propaganda bureaus deliberately created a damning image of 
Turks to counter anti-Russian propaganda from the Central 
Powers. It was well known in the United States that Russia was 
persecuting its Jews, and this was reported in American 
newspapers against the Allies, of whom the Russian monarchy, or 
the Russian czardom, were members. The British Propaganda 
Bureau came up with the Armenian horrors as a job that could be 
used against the central powers, and they did their propaganda 
very well.
    Now, I cannot doubt, and all can accept, that the concept 
of an Armenian genocide has been widely accepted. The various 
statements of political leaders listed in the resolution 
demonstrate this. This is partly due to the fact that in Europe 
and in the United States there were very few Turks, very few 
people to defend their ancestors. Religious and ethnic 
prejudice played their part, as they most definitely did in 
examples of Ambassador Morgenthau's activities, which I would 
be glad to quote at some point.
    I cannot doubt that that is the case, that people do accept 
this. Obviously there are many who do, but in America it is 
only in our lifetime that there have even been scholars who 
have had the capability of using Ottoman sources to study 
Ottoman history. It is no accident that the denial of the 
Armenian genocide has come when those scholars commenced their 
work.
    The Turkish Government has only recently done what it could 
to defend its own history. Actually, the Turkish Government did 
its best not to bring up these matters because they were afraid 
of the tremendous animosity among their own people who had lost 
their land, whose parents were killed, whose animosity was 
exactly the same as the animosity we see among Americans.
    The Turkish Government did not want continued wars. So, 
unfortunately for the cause of history, it kept very quiet 
about this, and only recently has it begun to open archives. 
That is partly what has caused the new resurgence in the study 
of this subject.
    Do I expect that the Subcommittee and the Congress will 
accept my word on historical events? I do not, nor should they 
accept the word of others. Such matters should be considered by 
historians who marshal facts, analyze sources and engage in 
scholarly debate, historians who do not put forth only one side 
of the argument.
    Congress, with limited time to consider the pressing 
problems of our country, cannot be expected to read all the 
literature, then come to conclusions on historical events. Yet 
in fairness that is exactly what must be done before historical 
judgments are made.
    I agree completely with those who have stated that it would 
be good if, rather than simply putting Turkey forth as an 
example of genocide, that all of the genocides that have taken 
place in history also be taught to our Foreign Service. I hope 
that they are.
    The Irish potato famine, Rwanda, the murder and starvation 
of Ukrainians by Stalin, Serbian death camps--all of these 
events should be mentioned. If you only mention what happened 
to Armenians in Turkey, what are the Turks to think? They are 
being singled out for condemnation, unjustly censored for 
something they believe they did not do, when those whose guilt 
is agreed upon goes unmentioned.
    If the Foreign Service of the United States is to be 
instructed on man's inhumanity to man, would it not be better 
to instruct in all of the many examples of inhumanity? If this 
were to be done, justice would demand that the curricula 
include not only the sufferings of the Armenians, but also the 
sufferings of the Turks.
    Thank you.
    [The prepared statement of Mr. McCarthy appears in the 
appendix.]
    Mr. Smith of New Jersey. Dr. McCarthy, thank you for your 
testimony.
    Dr. Smith.

 STATEMENT OF ROGER W. SMITH, PROFESSOR OF GOVERNMENT, COLLEGE 
                      OF WILLIAM AND MARY

    Mr. Smith. Thank you, Mr. Chairman and Members of the 
Committee. It is a privilege to be here with you.
    Let me begin by putting a human face on the issues we have 
been asked to discuss. Did the killing of the Armenians 
beginning in 1915 constitute genocide, and what suggestions can 
be made to increase awareness among American Foreign Service 
officers and others of the continuing significance of the 
Armenian genocide?
    I count among my friends a retired career U.S. Ambassador. 
He was an ambassador to two African states. When he heard about 
an Armenian genocide resolution in Congress, he asked me what 
was the point. The events had happened a long time ago, he 
said. In the 19th century, he asked? What happened may not have 
been genocide anyway. In any case, it was time to forget the 
events and move on.
    I cannot think of a better example of why the training that 
the resolution envisages is so important. He is an astute man, 
yet he had no inkling that it was with the Armenian genocide 
that the international law of crimes against humanity began, 
that the subsequent failure to carry through with the domestic 
and international trials contributed to the culture of impunity 
that made genocide feasible, nor did he have any understanding 
of the costs that denial of genocide by Turkey since 1915 has 
inflicted upon the world.
    Lack of respect for the victims, sending signals to would 
be perpetrators that they can commit genocide, then deny it and 
get away with it and cutting us off because these things that 
are denied get consigned to oblivion, cutting us off from 
knowledge that might help prevent future genocides.
    Nor do I think that my friend realized the extent to which 
giving in to Turkey's denial out of political expediency 
prevents Turkey from assuming responsibility for its own 
history, making it difficult for that nation to transcend its 
past, yet we have seen as recently as the Rwandan genocide that 
there has been much confusion about how to describe the 
clearest case of genocide since the Holocaust.
    Therefore, I would suggest that officials dealing with 
human rights issues and genocide should receive training in the 
nature and history of genocide, become aware of the means of 
prevention and the opportunities that have been lost and be 
exposed to the arguments and logic of genocide denial.
    They would need, as many of the speakers have said, to 
consider a range of cases, but prominent among them would be 
the Armenian genocide. The Armenian case I think, as Professor 
Melson has also suggested, is the prototype for much of the 
genocide that we have seen since 1945. It was territorial, 
driven by nationalism and carried out with a relative low level 
of technology.
    There are also powerful resources for the study of the 
Armenian genocide and the reports of the American officials at 
the time, notably Ambassador Henry Morgenthau and Consulate 
Leslie Davis, who made it quite clear that the Young Turk 
Government was pursuing a policy not of wartime relocation, but 
of extermination.
    The evidence for this being a centrally planned, systematic 
genocide comes from many sources and consists of different 
types of evidence which converge in a single direction. The 
evidence of intent is backed by explicit Ottoman documents.
    One of the leaders, for example, of the special 
organization that carried out the genocide sent a telegram to a 
regional official, ``Are the Armenians who are being dispatched 
from there being liquidated? Are those harmful persons whom you 
inform us you are exiling and banishing being exterminated, or 
are they being merely dispatched and exiled? Answer 
explicitly.''
    Intent is also backed by the outcome of the actions against 
the Armenians. It is hardly conceivable that over a million 
persons could have died due to even a badly flawed effort at 
resettlement. Moreover, the pattern of destruction was repeated 
over and over in different parts of Turkey, many of them far 
from any war zone. Some of you may know the story of Musadalh. 
It was along the Mediterranean, not along the Russian front. 
Such repetition could only have come from a central design.
    Further, the reward structure was geared toward destruction 
of the Christian minority. Provincial Governors and officials 
who refuse to carry orders to annihilate the Armenians were 
summarily replaced. Armenian men were drafted into the Army, 
set to work as pack animals and subsequently killed. Leaders 
were arrested and executed. Then the deportations of women, 
children and the elderly into the deserts of Syria and Iraq 
began.
    The American Ambassador Morgenthau immediately recognized 
that the forced marches into the desert and the atrocities that 
accompanied them were a new form a massacre. ``When the Turkish 
authorities gave the orders for these deportations, they were 
simply giving the death warrant to a whole race. They 
understood this well, and in their conversations with me they 
made no particular attempt to conceal the fact.''
    We have heard, for example, that the reports from the 
British and the Russians and the Americans and so on were 
prejudiced, but let us look then at the testimony of the 
Ambassadors to Germany and Austria, representatives of 
governments allied with Turkey, who also quickly realized what 
was taking place.
    As early as July 1915, the German Ambassador Wangenheim 
reported to Berlin, ``Turks began deportations from areas now 
not threatened by invasion. This fact and the manner in which 
the relocation is being carried out demonstrate that the 
government is really pursuing the aim of destroying the 
Armenian race in Turkey.''
    By January 1917, his successor reported, ``The policy of 
extermination has largely been achieved. The current leaders of 
Turkey fully subscribe to this policy.''
    Mr. Chairman, I would conclude that the charge of genocide 
is certainly sustained. There is ample evidence of it. The 
intent is indicated by a number of different forms of evidence 
coming from different sources, and it is high time that the 
President, the State Department and other officials in the 
American Government use the word genocide because that is truly 
what it was.
    Thank you.
    [The prepared statement of Mr. Smith appears in the 
appendix.]
    Mr. Smith of New Jersey. Thank you very much, Dr. Smith.
    Let me ask, Dr. Melson. You made reference to some Turkish 
academic scholars who seem to agree that this was a genocide. 
Are you at liberty to discuss who they were and what their 
findings were?
    Mr. Melson. Mr. Chairman, I would prefer not to name names. 
I do not know enough about the current situation in Turkey, and 
I am not sure how safe they would be if I mentioned these 
names.
    However, you might want to contact Professor Ronald Suny of 
the University of Chicago, who organized this conference, and 
he could give you more specifics than I can.
    Mr. Smith of New Jersey. I appreciate that.
    A thread running through your response is something that I 
certainly glean from Ambassador Aktan. In all candor, 
Ambassador, your testimony was a threat, and I say that with 
all due respect.
    You have come to this Subcommittee, and we appreciate your 
being here, but you have laid out a number of areas where you 
assert there would be a deleterious effect on U.S. foreign 
policy and what I would perceive to be a joint foreign policy 
objective that inures to the benefit of Turkey as well, with 
regard to Cyprus, the Caucasus, and Iraq.
    Let me say that that, frankly, makes me more suspicious of 
the government's efforts to suppress this information, the fact 
that you, a very, very distinguished diplomat, would come here 
and threaten the Congress and the U.S. Government, that if we 
pass this resolution that simply states something that we truly 
believe to be true based on information from a variety of 
sources, one big, fat threat just hangs over the horizon.
    You know, the U.S. Government and I, too, have been very 
supportive of Turkey. And I also believe that human rights 
abuses, including current abuses of torture, should never be 
swept under the table because we do not want them to get in the 
way of the relationship.
    Turkey has been a friend and ally and a very important part 
in the underbelly of NATO, but that does not and should not 
create a prior restraint or in any way to mitigate our efforts 
to speak in support of people in Turkey today who are being 
tortured, many of whom are Turkish people, journalists who have 
spoken out and have written what they believe to be the truth 
about the current regime. I mean, you even spoke of 
retaliation--suicide I think was the word you used--vis-a-vis 
the Armenian people.
    OK. You have been blunt, but let me be equally blunt. We 
may not get this resolution passed, but I think it is certainly 
a clear indication of your government's view, or if you are not 
representing the government, of your view as an individual. 
Threats are not helpful in this dialogue.
    This is being put forward. I am not beholden to either the 
Turks or the Armenians. I look at the facts of the case, the 
fact that it was, in my view, the first major genocide of this 
century and the fact that the information overwhelmingly points 
to it.
    I mean, I would ask you, Mr. Ambassador. Do you believe 
that Ambassador Morgenthau's story is accurate? Inaccurate? 
Hyperbole? Lies? What is your view of it? I am sure you have 
read it.
    Mr. Aktan. First of all, I wish to thank you once again for 
inviting me to this hearing. Mr. Chairman, I did not intend to 
threaten anybody. If you go through the----
    Mr. Smith of New Jersey. Would the gentleman suspend? 
Retaliation and the negative consequences in a whole host of 
areas was cited.
    Mr. Aktan. But if you go through the text carefully, and I 
am sure that you will do it in the future, you will see that 
under the pressure, tremendous pressure of the Turkish public 
opinion, the government will feel compelled to do this, to do 
that. That is not a threat.
    I am trying to explain the mood in Turkey, the atmosphere 
in Turkey, the political atmosphere. Turkish people cannot 
accept it, and the governments, whether we like it or not, the 
Turkish Government is a democratic government. It is under the 
pressure of the Turkish public opinion. It cannot do anything 
against the Turkish public opinion, and it is not a threat. It 
will feel forced to do it. That is very unfortunate, but that 
is--I mean, the frankness requires me to say it.
    Now regarding Mr. Morgenthau. Well, I read several things 
about his book, and one monograph prepared by scholars says 
that he has never written a book, that there was a ghost writer 
who had very little knowledge about Turkey. I am not a 
historian. I cannot say anything authoritative on this topic. 
Therefore, perhaps the historians can indicate it.
    Thank you very much.
    Mr. Smith of New Jersey. Let me ask Dr. Melson or Dr. 
Smith, and then Dr. McCarthy. What is your view of Ambassador 
Morgenthau? Do you believe his book was ghost written? Even if 
he had a ghost writer, does it not embody his beliefs as to 
what he observed as U.S. Ambassador to Turkey at the time?
    Mr. Smith. The work and the historian that the Ambassador 
referred to was Dr. Heath Lowry, whom I exposed as ghost 
writing letters for the Turkish Ambassador to the United 
States, trying to discredit and decrease information about the 
Armenian genocide.
    Lowry, in that book called ``The Story Behind Ambassador 
Morgenthau's Story,'' argues that it really is a pack of lies 
from beginning to end, and as far as a ghost writer, I mean, 
many prominent people write books with others, and Morgenthau 
did dictate it. It was edited, but he approved what was said 
there in sum.
    I think that the other thing that we can say about it is 
that much of what Morgenthau reports is reported by Leslie 
Davis and other American Consulates. It is confirmed by many 
missionaries, some of them German, some of them American, and 
so there is a great deal of evidence there in sum, so whether 
it was edited and helped along by a professional writer, I 
think that is not really the essential issue. It is the 
truthfulness of the text, and I think the text is essential 
truthful.
    Mr. Smith of New Jersey. Dr. McCarthy.
    Mr. McCarthy. I do not think there is any doubt that the 
book was ghost written. They have the checks that were written 
and things like that to the ghost writer, so I do not think 
anyone doubts that it was ghost written.
    I agree completely with Dr. Smith that this does not cast 
particular doubt one way or the other on the book. It would 
have been nice if he had said ``as told to'' or something like 
that, which he did not do. He did not try to hide it, but again 
the problems that I have with Ambassador Morgenthau are two.
    One is that many of the things that Ambassador Morgenthau 
reported, for instance, conversations he had with Talat Pasha, 
the Minister in charge of what he called--well, was later 
called the genocide. These things were not reported to State at 
the time. When he had conversations with the Prime Minister, 
which he found out years later he remembered having had, he did 
not report them to State at the time.
    This seems to me highly unusual and makes me question what 
he said. Usually, when an ambassador meets with a prime 
minister or minister of the interior, he will report it to his 
government and report what was said.
    Undoubtedly, many of the things that Ambassador Morgenthau 
reported were completely accurate. Many of the murders that 
took place that he reported were accurate, although they were 
reported much better by others, since Morgenthau was a rather 
florid stylist.
    He did exaggerate. He did primarily because, I am sorry to 
say, the man was definitely a racist. If you have read his 
book, as you have indicated you have, then you read the section 
on ``good blood'' and ``bad blood'' and superior types of 
humanity and inferior types. This is something that is very 
distasteful to a modern reader, but perhaps more acceptable in 
his time.
    I find that the main problem is, to recapitulate, not that 
what he writes is completely wrong, but simply that he never 
mentions the other side of the story. For instance, we know 
that in the city of Van when the Armenians took the city that 
they killed every single Muslim man, woman and child in that 
city. We know that Kurdish people from outside the city were 
rounded up in a giant bowl outside of Zeve, which is a village 
outside of there. They were surrounded by sharpshooters and 
machine gunners, and were all killed except for one small boy.
    We can see the monuments. The people remember the stories. 
I have spoken to that boy. He now unfortunately is dead, but 
many years ago I spoke with him. We know all these things took 
place, and we know that Ambassador Morgenthau somehow only 
noticed dead Christians. Only Christians counted, even though 
he himself was not one.
    It is fascinating that he failed to report what was 
happening to the Jews in the area. I am afraid we have to keep 
in mind, too, Ambassador Morgenthau deeply wished to be 
Secretary of State, had been thwarted once in that. He did not 
feel he could succeed by advancing a position that was not 
popular in America.
    Mr. Melson. If I may just add to the conversation, 
Ambassador Morgenthau based much of his testimony on consular 
reports and missionary reports directed to him, but there is a 
larger issue that has been raised by my colleague, Professor 
McCarthy, and also by Ambassador Aktan, and that is the 
suffering of the Turkey population.
    Here you might be surprised or they might be surprised to 
discover that those of us who studied the Armenian genocide 
recognize the suffering of the Turkish population. There is no 
question of denying the sufferings of the Turkish population, 
and indeed the Turks were massacred and were ethnically 
cleansed before the Armenian genocide, and here I am talking 
about the Caucasus, and I am talking about the Balkans, where 
hundreds of thousands of Turkish refugees were driven out of 
those areas as they became independent and fell out of the 
Ottoman Empire.
    This raises a larger issue, and the issue is this. We are 
asking the Turkish Government and through the Turkish 
Government the Turkish people to do something indeed very, very 
difficult, and it is this. This is a government and a people 
that have a history of victimization. People who themselves 
have been victimized and who trace their identity to the Young 
Turks, to the period of 1908 to 1923, have a great difficulty 
in facing up to the possibility that the Young Turks themselves 
were able to be victimizers.
    There is a psychological issue involved here. There is a 
moral and psychological issue. We are asking for the Turkish 
Government and for the Turkish people to look back with a 
certain amount of courage through their past.
    We know that the Germans were able to do that. Now, the 
Germans were able to do that, of course, after thorough 
occupation by the allies after the Second World War. I suspect 
if not for that occupation, the Germans may not have been able 
to do that, and so we are asking something extraordinary of the 
Turks, but what we are asking is the truth.
    We are asking them to face up to the truth, to face up to 
their own history, so that the relationships between the 
Armenians and the Turks can move on to a different footing and 
for the Turks themselves and for Turkey itself to join the 
family of democratic nations, and there might even be practical 
consequences. There were discussions of practical consequences 
before.
    I suspect that one of the reasons the Turks are having so 
much trouble getting into the European community, the European 
Union, is precisely because of the human rights issues and 
especially their denial of the Armenian genocide.
    Mr. Smith of New Jersey. I would like to ask your response 
then, Dr. Melson, to the question raised by Professor McCarthy 
about how many Turks died at the hands of Armenians and whether 
it is a distortion of history to single out one side as guilty 
of genocide. Were the scale and the severity of atrocities on 
both sides equal?
    Mr. Smith. Well, I think one needs to make a distinction 
here. First of all, the policy of the government. It was a 
policy of the Ottoman government. The Armenians, they had local 
head men and things of the sort and sum, but did not really 
have the power of the state behind them in sum.
    Various writers, including some of them from the German 
diplomats, talk about a defensive violence, that if the 
Armenians were attacked they did defend themselves in sum, so 
one has to look at that sort of violence in sum.
    There is also often a commingling there between the 
Armenians, who were with the Russian Empire and who were, of 
course, waging war against the Ottoman Empire in sum, so it is 
hard sometimes to distinguish between which group of Armenians 
we are talking about, those in Turkey or those in Russia in 
sum, but I think the other issue that has been raised, and a 
number of speakers have made this point as well, a lot of 
Muslims died.
    Now, there is a big difference between dying and being 
killed, being intentionally killed, and people say, 
revisionists of the Holocaust say, more Germans died in World 
War II than Jews did. If that is true, we still have to say but 
what is the difference there in sum.
    So I think that there undoubtedly were some Armenian 
revolutionaries. There were some who went over to the side of 
the Russians. There were killings at the local level. Some of 
it was defensive. Some of it was not in sum, but I would not 
see what any Armenian violence did as constituting a kind of 
genocide. It was not the scale. It was sporadic, and most of it 
was defensive.
    Mr. Smith of New Jersey. Dr. McCarthy, I would like to ask 
you a question. You heard Dr. Smith testify a moment ago that 
the Ambassadors of Germany and Austria and representatives of 
governments aligned with Turkey also quickly realized what was 
taking place.
    As early as July 1915, the German ambassador reported to 
Berlin, ``Turks began deportations from areas now not 
threatened by invasion. This fact and the manner in which the 
relocation is being carried out demonstrate that the government 
is really pursuing the aim of destroying the Armenian race in 
Turkey.'' That is the German ambassador.
    By January 1917, his successor reported, and I quote from 
Dr. Smith's testimony quoting the Ambassador, ``The policy of 
extermination has largely been achieved. The current leaders of 
Turkey fully subscribe to this policy.''
    If it was just a matter of British or American propaganda, 
why would the allies of Turkey, Germany and Austria make such 
statements?
    Mr. McCarthy. Well, I hope I have made it plain that it was 
not purely a matter of British and other propaganda; that there 
was, indeed, tremendous loss of life among the Armenians.
    With all of these things----
    Mr. Smith of New Jersey. If I could just interrupt, and 
then I will yield right back to you.
    Mr. McCarthy. Of course.
    Mr. Smith of New Jersey. It makes the statement. Do you 
have any reason to believe these statements are inaccurate from 
the----
    Mr. McCarthy. That the statements were not made? I believe 
the first one was slightly different than what you quoted. I 
may be mistaken. I believe he did not--well, again, the general 
tenor of the statements I am sure was made by Wangenheim 
especially.
    Mr. Smith of New Jersey. But, ``The government is really 
pursuing the aim of destroying the Armenian race in Turkey.'' 
That is from an ambassador aligned with----
    Mr. McCarthy. I do not believe that is. Is that how the 
quote reads?
    Mr. Smith. Yes. I mean, I do not have the documentation 
with me . Well, I actually do have the reference here. The 
quotation is drawn from the German archives. This is not from 
Morgenthau, but the German archives.
    Mr. McCarthy. I believe the concept, and again 
unfortunately this is why I say historians have to argue these 
things, because we are not sitting here with our documents, and 
we are not trying to translate from German written in fraktur 
script.
    I believe what he was talking about eradicating the 
Armenian presence in Turkey. I may be mistaken. I believe that 
that is the structure of the German, which is quite a different 
thing than saying killing. There is quite a different concept 
behind the words, but again I do not have them in front of me.
    I think if you are going to say these things you have to 
take into consideration all sorts of prejudices. You also have 
to quote the entire area of what the Germans have written, not 
simply small quotes. You have to address where they talk about 
what happened with the invasion by the Russians, what happened 
with the Armenians taking Van where they more or less support 
the Turkish case. You cannot just take a couple things out of 
quotes.
    When you talk about the deportations, we have to mention 
the fact that hundreds of thousands of Armenians who were 
deported did survive. We have to mention the fact that they did 
not go to the desert, as is always stated, but they went into 
the areas primarily in northern Syria. Also, that Cemal Pasha, 
who ended up being killed by Armenians in the end, actually fed 
people with military stores.
    From Armenian sources there are, if I remember right, and I 
am not sure I do remember the numbers right, 250,000 who 
survived. We have to keep that in mind. We also have to keep in 
mind many things that have been said today.
    Most of the Armenians who died were not deported. Of the 
Armenians who died, at least as many ran from the Ottoman 
armies into the Caucasus as the Muslims ran from the Russian 
armies. We act as if these people were all deported by Ottoman 
columns. They were not. They died in much greater numbers by 
simply running from armies. They did not go the way the Ottoman 
sent them. They went the opposite way to the north. This has 
not been mentioned.
    We talked about Musa Dagi. Musa Dagi was undoubtedly a case 
of Armenian rebellion against the Ottomans that the Ottomans 
tried to put down. Surely, not even after reading Franz 
Werfel's very fanciful book on the subject can one deny these 
things.
    The problem is these are extensive problems. They need 
tremendous documentation. They need an incredible amount of 
work. We have to sit down. We have to work on it, so I suggest 
that what the Congress might consider is exactly the kind of 
thing that Dr. Melson was alluding to. Turks, Americans, 
Armenians of various kinds from all over the world, we should 
be getting together in a great Congress. We should get together 
over a long period of time and look over all these things and 
argue them in a scholarly way.
    If our government or any other government was to support 
something, it should be that. We should be working to try to 
examine these issues in ways that are impartial or at least two 
sided.
    Mr. Smith of New Jersey. Let me just respond very briefly. 
Destroy or eradicate. I mean, ``eradicate the Armenian race.'' 
If that is the actual word as translated, that certainly 
suggests a genocide.
    I mean, you say survived. Survived what, a campaign or a 
reign of terror? I mean, why were they making----
    Mr. McCarthy. They lived under--they were taken to Syria 
under horrible conditions. I do not doubt this for a moment. It 
is hard to tell, but approximately half of those who were 
deported lived through the war, and they lived under Ottoman 
control. They were not under the control of the British or 
anyone else. Once they got to where they were taking them, they 
survived.
    I am not saying they were happy, and I am completely 
opposed to this as government policy. It was a bad thing to do, 
but to say that these people were involved in genocide, you 
have to ignore the fact that they were completely under Ottoman 
control, alongside Ottoman soldiers, and nobody shot them. 
Nobody killed them. They lived through the war. All the 
Armenians in Istanbul and Izmir and Edirne and many other 
cities completely under the control of the government lived 
throughout the war.
    The equivalent in the Holocaust would be to say that the 
Germans killed none of the Jews in Berlin. This is ridiculous. 
It could not have been called a genocide because if those that 
were most under Ottoman control were not killed, how can it 
conceivably be a genocide?
    Mr. Smith of New Jersey. As we all know, genocides often 
unfold over time. Even those who are killed in the Warsaw 
ghetto at first thought that they were going to be spared, and 
then they were being told when they were put onto cattle cars 
that they were being taken to new jobs elsewhere, only to find 
over time that it was a systematic extermination.
    I just want to ask my final question, Dr. Smith. Is it your 
testimony that your quotes regarding those Ambassadors is in 
context? Out of context? Is it accurate?
    Mr. Smith. I think it is in context, and I think it is 
accurate. The translations to English were done by a person who 
speaks and writes German. It is possible to check the accuracy 
of those, by getting the copies of the original.
    Mr. Smith of New Jersey. If you could get back to us with 
the copies, we will take it to the Library of Congress. They 
have an expert translation service.
    Mr. Smith. Of course.
    Mr. Smith of New Jersey. Because I think when questions are 
raised along the lines of well, that is not accurate, or that 
was ghost written, or this, that and the other thing, it 
creates a certain impression----
    Mr. Smith. Certainly.
    Mr. Smith of New Jersey [continuing]. Which is unfair, if, 
especially in your case, you believe this to be true and 
accurate.
    I would like to yield to Mr. Sherman for any questions he 
might have.
    Mr. Sherman. Thank you, Mr. Chairman.
    I would point out that Ambassador Aktan has pointed out 
that there could be some practical disadvantages from passing 
this resolution.
    I have sat with Chris Smith and this Committee for almost 4 
years, and again and again he has urged upon us that we respect 
human rights, that we call them as we see them and that we give 
a recognition of human rights a high priority in our foreign 
policy.
    I would be very surprised if this Committee would back down 
and not recognize the Armenian genocide simply because there 
might be some practical disadvantage for recognizing the truth.
    There are in fact very powerful economic forces operating 
on the U.S. Congress that have prevented the recognition of the 
Armenian genocide until perhaps this year, and it may be 
fortuitous for a number of reasons that we are able to get the 
support of House leadership to bring this to the floor in the 
ordinary course of business and pass it this year.
    I am a little concerned about the Ambassador's comments 
first about the friendship of the Turkish Government to the 
newly independent Armenia. Blockade comes to mind as not a 
synonym of friendship. I am also--well, my people have a term, 
chutzpa. Now with Leiberman becoming famous it is getting a lot 
of use. It is defined as the Menendez brothers asking for mercy 
from the court because, after all, they are orphans. That is to 
say they killed their parents, so now they are orphans.
    Ambassador, you do indicate that the Turkish cause in the 
United States is put at a disadvantage because there are many 
Armenian Americans. The Armenian Americans I grew up with were 
in the United States because their parents and grandparents had 
fled this genocide, so it is not a coincidence that there are 
many Armenian Americans living amongst us today. It is in the 
case of many families a direct result of the genocide against 
them.
    Professor McCarthy or Dr. McCarthy, I think you are right 
to say that in designing a training program for our State 
Department we should not only focus on this genocide, but on so 
many others. It is necessary that we bring up this one in large 
part because of the denial, but we already have a policy at the 
State Department of testing those who apply for their college 
and grad school educations.
    I think that any competent grad school or even college 
program in the United States for Foreign Service officers would 
include a knowledge of these other genocides, but I would 
happily work with and I think the authors of this resolution 
would happily work with those who would want to lengthen it by 
identifying other genocides in the history of this planet that 
should also be part of State Department staff education.
    Ambassador, I am still struggling to understand why the 
Turkish Government has such great difficulty in recognizing 
this genocide. You captured it a bit in your presentation where 
you said the people of today's modern Turkey do not want to 
view themselves as being genocidal.
    I would ask you. Do you think that today's Germans or 
today's Americans should be regarded as genocidal people when 
in fact the ancestors of both did commit genocide, in one case 
against the Jewish people and another case against many 
identified North American tribes?
    Mr. Aktan. Thank you. You see, Mr. Congressman, you believe 
that it is genocide, and I believe that it is not a genocide, 
so there is disagreement between us.
    Mr. Sherman. But it would----
    Mr. Aktan. What we can do is as I suggested. In fact, it is 
not a suggestion. I challenge the Armenian Government to take 
the issue to the International Court of Justice at the Hague 
because according to the Convention the only competent body is 
the International Court of Justice at the Hague. Let us see 
whether it is genocide or not. Then it will be easier for us to 
accept it because the competent body can pass a judgment on 
this historical fact. It is an imprescriptible crime. That is 
to say whenever it has been committed, it can be tried.
    Let us have the International Court of Justice to interpret 
the treaty; that is to say the treaty of genocide, and come up 
with its own view because I know that I cannot convince you, 
but be sure that you cannot convince me. I mean, when you talk 
about denial of genocide I would reciprocate there is a denial 
of a genocide of the Muslim population there, and no one 
mentions it.
    I mean, I very carefully followed the film. There was one 
word, pushing the Turks from the Balkan Peninsula. The word is 
``pushing.'' My family is one of those people which has been 
pushed. As a result, two-thirds of the family has been 
massacred.
    If the Armenian question were genocide then Turks must have 
been subjected to various genocides in the Balkans and in the 
Caucasus or in Russia. No one mentions that.
    Mr. Sherman. Well, there is no doubt----
    Mr. Aktan. Can I make one more point?
    Mr. Sherman. Well, I think you misinterpreted my point. I 
was not trying to engage you in a debate did the genocide occur 
or did it not occur, but rather to understand what would be the 
implication for today's modern Turkish nation if, as I am sure 
you do not think it would occur, either this Congress or the 
International Court at the Hague were to determine that what 
happened to the Armenian people was indeed genocide.
    Putting aside, you know, what the historical facts are, do 
you think, because we agree on the historical facts in North 
America. We agree on the historical facts in the Third Reich. 
Do you think it is appropriate to refer to today's modern 
Germans or modern Americans as genocidal?
    Mr. Aktan. I cannot answer. I mean, it is against my 
profession to talk about other people.
    Now, if there is anti-semitism for one millennium in a 
country as a result of which a genocide is committed and 
accepted--committed before the eyes of the world and accepted 
by the country in question--it is all right, but in our case 
there has never been anti-Armenian feeling, hatred or anything. 
We lived together peacefully for 800 years. This was the reason 
why they were called loyal subjects, not the others. I mean, 
the Greeks were different, but Armenians were the loyal 
subjects.
    Now, what you think is very interesting because you say 
that there are facts and I have to accept them, but there is 
disagreement over these facts.
    Mr. Sherman. I asked you a simple question about Germans 
and Americans, and I guess you have declined to answer.
    Mr. Smith of New Jersey. Will the gentleman yield?
    Mr. Sherman. Yes, I will yield.
    Mr. Smith of New Jersey. I thank my good friend for 
yielding.
    Mr. Ambassador, let me ask you a question. Many United 
Nations conventions, and perhaps all of them, only create 
jurisdiction when a convention enters into force and a 
particular country ratifies that convention and becomes a party 
to it.
    For example, just recently when Mr. Pinochet was held to 
account for the torture convention, it was only for those 
tortures that occurred after Chile became part of that torture 
convention.
    Perhaps any of the panelists will want to comment, and I 
think this is something we need to get to the bottom of. 
Article 9 of the genocide convention talks about disputes 
between contracting parties and the like, but again the 
convention on the crime of genocide only came into effect in 
1951.
    I do not know--and perhaps we can seek further elaboration 
on this from the proper authorities--whether or not there is 
any jurisdiction, whether or not this is just a nice statement 
that if they make a declaration you are willing to live with 
it. But again the crimes occurred before the convention and the 
statute was in effect.
    You know, a similar issue is being raised with the World 
Court, the Rome statute, about whether or not countries that do 
not become a part of it will be held to account under its 
jurisdiction. It is a very, very bitter dispute with the United 
States saying that unless we are a party to it we cannot be 
held to account.
    It seems to me that, in the case of the genocide 
convention, you have a 1951 convention long after the events in 
question--as a matter of fact, part of the genesis of the 
convention itself was the Armenian genocide and, of course, the 
Holocaust committed against the Jews.
    Do you know definitively whether or not the jurisdiction 
exists?
    Mr. Aktan. You see, Mr. Chairman, what is the meaning of 
imprescriptibility of a crime? What is the meaning of 
imprescriptibility of a crime? Imprescriptible means that 
whenever it has been committed it is a crime. It should be 
followed up, tried and condemned.
    You see, genocide is different. It is not any kind of 
homicide. This is a different thing. You cannot compare it with 
the 3,000 men killed by the Chilean regime. This is something 
entirely different. Therefore, one has to try it. Let us try 
it. Let us check with the jurists. Let us check with the 
academics, and let us see it. I believe that it is possible.
    Mr. Smith of New Jersey. Since you have recommended it, do 
you know if it is possible?
    Mr. Aktan. You see, no knowledge. I think, I believe it is 
possible.
    Mr. Sherman. Mr. Ambassador, I think your suggestion is 
quite interesting. Obviously the Court would have to either 
assert its jurisdiction, or perhaps there could be some 
agreement to jurisdiction, an agreement to apply the Court's 
attention to events that occurred long before it was created.
    I do not see a reason for this Congress to wait for that 
action. You yourself pointed out with great satisfaction a 
decision by the British House of Lords. If the British House of 
Lords can speak to this issue years ago or months ago, 
certainly Congress can act in the next few weeks, but just 
because Congress provides some guidance to our State Department 
and also announces the policy of this Congress, at least the 
House of Representatives, that does not mean that the 
International Court at the Hague could focus on this issue.
    Perhaps the other panelists could comment on that, but it 
would seem to be a useful exercise. Do you have any indication 
that the Turkish Government would cooperate with such a trial?
    Mr. Aktan. If you go through the text of Article 9, the 
Turkish Government or any other government has no choice but to 
cooperate because here there is no option of----
    Mr. Sherman. Excuse me. Excuse me. Are you saying as the 
Chairman pointed out, the Court was created in the 1950's. 
These events occurred many years before. Do you have any 
indication that the Turkish Government would waive that issue 
and say----
    Mr. Aktan. I cannot, sir.
    Mr. Sherman [continuing]. We are happy to have an inquiry 
into our policies nearly 40 years before the Court was created?
    Mr. Aktan. I cannot talk for the Turkish Government, but my 
understanding of this article is that Turkish Government cannot 
do otherwise but accept the case.
    Mr. Sherman. Well, the Turkish Government could indeed 
argue jurisdiction. If the Chairman is correct, that would be a 
very strong argument. It is possible to waive jurisdiction.
    I am much more conversant with private law than I am public 
international law, but a person who is wanted for a crime in a 
jurisdiction can voluntarily walk in and say here I am. You did 
not have jurisdiction over me, but I want my case tried. 
Likewise, the Turkish Government could consent to whatever 
modifications of the treaty that brought the Court into 
existence, could consent to those modifications to give the 
Court jurisdiction over events that occurred early in the 
twentieth century.
    Is there any statement of leading circles in Turkey that 
indicates that the Turkish Government would be willing to have 
whatever changes are necessary made so that the Court would 
have jurisdiction?
    Mr. Aktan. Mr. Congressman, I retired about 3 years ago, so 
I have no idea what the government thinks about it. In fact, 
for the first time--I am making this proposal for the first 
time in my life, and the Turkish Government is not aware of it, 
so I cannot really engage the Turkish Government.
    Mr. Sherman. So your suggestion is novel and personal and 
does not----
    Mr. Aktan. Exactly.
    Mr. Sherman. And is not mirrored in scholarly or political 
articles appearing in Turkey?
    Mr. Aktan. No.
    Mr. Sherman. Then you are to be commended for novel and 
creative thinking. I am just going to guess that there will be 
some in Turkey who take notice of your suggestion, and I hope 
they will also take notice of at least one Member's belief that 
it is a suggestion that ought to be pursued and let us give the 
Court the jurisdiction, let all sides come forward with all 
evidence that they have, and I see at least three scholarly 
Americans here that could probably be of assistance to such a 
Court.
    Mr. McCarthy, I see you have a comment.
    Mr. McCarthy. I just want to say I think that even if the 
World Court or the Hague would not hear this case, or did not 
feel it should, I could see why it might think that they were 
not the responsible party.
    I think that the idea that has come forward is a very good 
one. These things should be collected and researched. There 
should be a body. I myself would prefer a scholarly body, but I 
see that a legal body is perfectly acceptable as well. We are 
willing to accept that lawyers can be scholars.
    That being the case, it seems to me that one of the things 
that this Congress or another body could do, and perhaps should 
do, is to call on the governments of the area. Not simply the 
government of Turkey, but also the government of Armenia, and 
hopefully the government of Russia, which is very involved in 
this as well, to provide scholars and hopefully some financing 
to attend these meetings. Also, open all archives that have not 
been opened, and provide translators for these meetings.
    For instance, I can think of some areas of the Turkish 
archives that are not yet perfectly opened that should be, 
although it is much better than it was. The Russian archives 
have definitely many areas that are not open. The Armenian 
Revolutionary Federation archives are extremely important and 
are completely closed, to my knowledge.
    All of these things be called for. Anyone who says they 
will not provide these things is making a statement about what 
they think really happened. All parties should be willing, if 
they are honest and if they are honorable about this. They 
should be willing to state yes, we wish to have this 
investigation take place. We wish it to be as public as 
possible, and we wish to open all archival materials to all 
scholars so that it can take place.
    Mr. Sherman. I know that I do want to hear from Dr. Melson 
in a second, but I know that whether or not this resolution 
passes is not yet determined; that it may need to be modified a 
bit to get the support it needs to pass the House, and an 
amendment that called upon every entity to open its archives 
from Russia to the ARF, from Istanbul to Uravan, and that also 
called upon such actions to be taken by governments and by the 
court perhaps needing even treaty modifications to clearly 
grant jurisdiction to the International Court and the Hague 
over this matter and to call upon that court to investigate and 
try this matter.
    If those additions to this resolution would secure its 
passage, I think the authors might very well appreciate that as 
an approach, but it would be helpful, of course, to have the 
slightest indication from the Turkish Government that it would 
go forward because----
    Mr. McCarthy. Or the ARF, right?
    Mr. Sherman. And the ARF as well. I would, frankly, be 
surprised if those on the Armenian side would not welcome an 
opportunity. I mean, they have worked very hard to get the U.S. 
Congress to recognize the genocide, and if we are successful in 
passing this resolution that will mean a lot, but nothing 
would--what would mean even more would be an adjudication after 
evidence, after open archives and with the participation of the 
Turkish Government, any decision by the International Court.
    With all due respect to the House of Representatives, that 
would achieve the Armenian side's purpose of international 
recognition to a greater degree than even a resolution 
supported by the distinguished Chairman and even a resolution 
that is passed by this House.
    Dr. Melson, did you have a comment?
    Mr. Melson. Yes, Mr. Sherman and Chairman Smith. I must say 
I am sitting here feeling somewhat frustrated and impatient. 
The reason is that of course we should not avoid any court 
looking at the evidence, and we can delay this issue for a 
world court or any other court to look at, but the point is 
that the evidence is in and has been in for many, many years.
    In fact, some of the discussion that I am hearing now 
reminds me a little bit of the kind of trap that Holocaust 
deniers lay. They want a debate. They want further evidence. 
They want further discussion, as if the issue is open to 
further discussion, further evidence and so on.
    We have tons of evidence. We have evidence in the American 
archives. We have evidence from Germany. We have evidence from 
France. We have evidence from the Vatican. We now have fresh 
evidence. Dr. Yair Auron has done work on evidence from the 
Israeli archives, from the Zionist agency at the time. Jamal 
Pasha was getting ready to deport the Armenians from Palestine 
and so on.
    The issue of Van that Professor McCarthy raises, for me Van 
always stood as the Warsaw ghetto of the Armenian genocide. The 
people of Van were surrounded and were waiting to be massacred 
because they knew that the rest of the Armenian people were 
being massacred, and for a time they resisted, and they 
resisted successfully. Then the Russians came in, and there 
were atrocities committed by the Russians, and then the Turks 
returned, and they massacred the people of Van.
    We do not really need a world court or any other court to 
look at these issues. The verdict is in. There was an Armenian 
genocide. Those of us who have studied it, who came to it 
without being Armenian chauvinists or Turkish chauvinists, who 
simply looked at it, at least I did, as a way of trying to shed 
some light on the Holocaust, are convinced that a genocide 
occurred, and we simply think that the truth needs to be told, 
period.
    Mr. Sherman. Yes. Doctor, if I could comment? As far as I 
am concerned, the evidence is in. As far as I am concerned, we 
should pass this resolution. I am not talking about delaying 
for a day the recognition by the House of Representatives that 
a genocide of the Armenian people occurred.
    If, however, the International Court of Justice at the 
Hague can also review these matters and I believe reach the 
same conclusion, that would be even more authoritative. You 
cannot ask the International Court to render a verdict just 
because the evidence is in, just because you have seen the 
evidence and I have seen the evidence.
    A verdict from that court would require the procedure that 
Dr. McCarthy outlined and that I may have added a little bit 
to, and that is you would need a grant of jurisdiction to the 
court and an instruction to the court that it should focus on 
this issue. You would need open archives, and in order to have 
the effect that I would like to see in Turkey you would need 
the participation of the Turkish Government because I think to 
have the full effect I would like to see on the Turkish people 
you would need a process in which their government presented 
its side of the case to the International Court.
    I frankly doubt that the Ambassador's proposal will get 
very much support in Turkey, but he would know better than I. I 
am not talking about us hiding from the evidence. I am not 
talking about delay or waiting for another process before the 
House of Representatives acts, but if we want the International 
Court at the Hague to act it would have to go through a 
procedure that some would say you should not even have to go 
through because the evidence is in.
    The evidence is in to this Congress. The evidence is in to 
you and I. The evidence is not in to the docket of the 
International Court in part because it may very well lack 
jurisdiction without the modifications that would be necessary 
for the Ambassador's challenge to be effectuated.
    I have taken more than the traditional 5 minutes, but, 
Ambassador, we have talked about your proposal for a while. I 
ought to let you comment on the commentary. I do not know if 
you have any further comment or not.
    Mr. Aktan. I do not think I have much to add to what I have 
said.
    Mr. Smith of New Jersey. Mr. Pallone?
    Oh, I thought you were done.
    Mr. Aktan. Sorry. You have been waiting for the last 85 
years, and I understand that you are running out of patience. 
You cannot wait for another couple of years, and you want to 
pass this resolution in the House. Certainly it is up to you to 
adopt this resolution.
    There will be enormous difficulties in Turkey, in Turkish 
public opinion, in government circles, and personally I do not 
think that the Turkish Government, the present one or any other 
one in the future, can cooperate with a country whose 
legislative body passed a resolution which is almost 
diametrically opposite to the Turkish position, to the feelings 
of the Turkish people, neglecting the disaster which befell the 
Turks and the Kurds and the Muslims during this period, without 
even mentioning any massacre of the Turks.
    You are in a hurry. Well, I understand, Mr. Congressman, 
that you are decided. Your decision has been already taken, and 
whatever I say would not affect your position, so I stop here.
    Mr. Sherman. I would point out that you have not affected 
my view as to what historically happened, but I would say that 
people will listen to the International Court far more than 
they will listen to Brad Sherman, and I think that a--I am not 
saying--I do not think it would affect my vote, but I think if 
your government were to issue a proclamation tomorrow that it 
wants this matter resolved at the International Court and it 
will do everything possible to have that court convene and that 
it will insist on open archives and if those archives, 
including those of the ARF, are opened up that it will consent 
to jurisdiction.
    If a declaration like that were to come from Ankara, those 
of us who support the resolution would probably be 
unsuccessful, so your proposal is an intriguing one. It is not 
one of the Turkish Government. It is only your personal 
proposal, but if the Turkish Government were to adopt it it 
could probably prevent this resolution from being passed and 
change the focus of American attention to this from a U.S. 
Congress that you do not have a lot of faith in to a judicial 
process that you yourself have proposed.
    So I do not know if anybody--I suspect there are people in 
Ankara listening, and I will check the worldwide web tomorrow 
morning and see if there is a statement by the Foreign Ministry 
of Turkey announcing at least a tentative acceptance of this 
idea.
    You know, I want to see this resolution pass, but if it 
does not pass because the Turkish Government has consented to 
the jurisdiction of the International Court, that would be the 
best of all reasons not to pass it.
    Mr. Aktan. May I make one very short comment?
    Mr. Sherman. Yes.
    Mr. Aktan. Well, let us try it. Let the Armenian Government 
have a recourse to the court and see the outcome.
    Mr. Sherman. If the Chairman is correct, the Turkish 
Government would have to consent to a jurisdiction that the 
court currently does not have, and I would say this. If the 
Foreign Ministry of Turkey issues a release tomorrow consenting 
to the International Court's jurisdiction calling upon it to 
study these facts, opening its archives and the ARF for the 
government in Uravan does not immediately agree then this 
resolution is not going to do too well on the floor.
    Mr. McCarthy. Could I suggest just one thing?
    Mr. Sherman. Yes.
    Mr. McCarthy. Since we are talking about a government, you 
might want to give it a week or so. It might take a little 
longer for them to make up their mind.
    Mr. Sherman. OK. No, no, no, no. I said I would start 
checking the web tomorrow. We are not going to vote on this on 
the floor for about a week, maybe 2 weeks.
    So, yes. I would say that if the Turkish Government does 
not want this resolution passed, its consent to the process 
that the Ambassador laid out would probably lead to the 
legislative result, would prevent the adverse bilateral 
consequences that he predicts from occurring. I hope they would 
not occur anyway, but it would defuse a difficult circumstance 
that we are all aware of.
    So, no. I will start checking the web tomorrow just in case 
something happens at lightning speed, but even in a week or two 
this would be of tremendous significance. I will say this. If 
the Turkish Government consents to this jurisdiction and we do 
not hear from the two archives--you know, you have asked that 
the Armenian Government and that the ARF indicate their 
willingness to open their archives. If we heard a positive 
response from Turkey and a lack of positive response from the 
Armenian side, that would also make it difficult for this 
resolution to pass.
    Ambassador, I think that your government should listen to 
you very carefully. You have come up with a very novel and 
creative idea, and if your government will embrace your idea 
they may defeat us on the floor.
    Mr. Smith of New Jersey. Mr. Pallone?
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to ask the Ambassador and Dr. McCarthy some 
questions, but I just wanted you to understand where I am 
coming from and why I have the same sense of frustration that 
Dr. Melson expressed before.
    First of all, let me say I do not want to wait to pass this 
resolution for anything, and the reason is because I do not 
want the genocide to happen again. I do not look at this 
hearing as just a historical exercise. I am very fearful that 
if we do not send a message to the Turkish Government and to 
the world that the Armenian genocide occurred that somehow it 
could be repeated.
    That is the reason why when I was talking, commenting 
about, you know, with Ambassador Grossman that I think that the 
whole American policy which I basically see as one of 
appeasement is a very dangerous thing.
    I was very concerned about what Ambassador Grossman said 
because I think it is a policy of appeasement that says that if 
you deny the genocide or somehow do not acknowledge it that 
that will help human rights. I think the opposite is true. I 
think that if you deny it you hurt the cause of human rights, 
and if you do not pass a resolution forthwith it may happen 
again.
    Now let me just explain. You know, Ambassador Aktan made a 
statement about how there are good relations between the 
Armenian and the Turkish people, and I believe that. I do not 
believe that Turks are anti-Armenian. I think that both 
yesterday in 1915 and today that the anti-Armenian attitude 
comes from above, comes from the government and is imposed by 
the government; that essentially the Turkish people like 
Armenians, but they are told by the government not to.
    You know, you have to understand that Armenian Government 
is not in a position, in my opinion, to take action the way 
that this government is. You will remember that Armenia is a 
very small country. It is being blockaded on most sides, most 
of its borders or at least 50 percent of its border by, you 
know, Turkish nations, either Turkey or Azerbaijan.
    I am not really sure if they are going to be in a position, 
you know, to take something to the Hague or to challenge Turkey 
because they may be fearful of it, of the consequences, the way 
you have described, because of the Turkish Government's 
attitude.
    I really think that it is incumbent upon this body. You 
know, this is the United States. This is a powerful country. We 
do not have to worry about whether someone likes it or not or 
what the consequences are going to be. We represent the 
Armenian diaspora, and it is our obligation to pass this 
resolution regardless of what happens in the Hague or 
regardless of whether the Turkish Government or the Armenian 
Government wants to bring this to the Hague. I mean, to me it 
is a totally separate issue.
    Let me ask my question of Ambassador Aktan because I said 
that part of my fear is that the genocide not happen again. 
There is a blockade of Armenian by Turkey and Azerbaijan. Every 
effort that I see that is made by the Turkish people to 
interact with Armenians is stopped by the Turkish Government.
    I will give you an example. When I was in Armenia the last 
time and then in Azerbaijan, we went up to Gumry, and we were 
told by the mayor of Gumry and the chamber of commerce there 
that they had worked out a relationship with the Carz region in 
Turkey and the government, the local officials there, the mayor 
and chamber of commerce, that they wanted to have an exchange 
of the government. They wanted to have economic relations. They 
wanted to cross the border and have trade.
    Then I read I think in July or August that even though that 
was happening and when the mayor of Gumry and some of the local 
officials went over to Carz they were told and forced by the 
Turkish Government to turn back and to go back to Armenia.
    I see repeated efforts by the Turkish Government from above 
to stop interaction between the two peoples, to stop commerce, 
to stop trade. I am just very fearful that if we do not send a 
message that this type of activity, you know, what happened in 
the case of the genocide was wrong and that the government 
intentionally did it, which I believe they did, that the 
government will continue a policy that is anti-Armenian with 
its blockade or some of the other things that you mentioned in 
your statement, Mr. Ambassador.
    Let me ask the question. You say in your statement that by 
insisting of the recognition of the genocide, the Armenian 
leadership in the diaspora will finally silence the few 
remaining voices favorable to them in Turkey. This will 
effectively result in sealing the border. Given the situation 
in Armenia, this attitude of the Armenian Government is akin to 
suicide.
    Now, what reason do you have to believe that somehow the 
Turkish people would rise up and demand that the government 
seal the border, which is really effectively already sealed, or 
somehow, you know, cause some kind of, you know,--I do not 
know--military action or whatever that, you know, would be akin 
to suicide on behalf of the Armenian Government? I do not see 
anything.
    When I talk to people who are Turkish or when I read the 
papers and I see what is put out by the Turkish press, I do not 
see any reason to believe that whatsoever. My view is just the 
opposite of what you and Dr. McCarthy have said, and that is 
that it is the Turkish people that want the blockade lifted, 
that would like to see the genocide recognized, and it is the 
government which is, you know, still primarily influenced by 
the military, in my opinion, that imposes this as a matter of 
policy in order to somehow, you know, create an atmosphere that 
is anti-Armenian.
    See, I think opposite of what you think in terms of what 
the effect of this genocide resolution would do.
    Mr. Aktan. Mr. Congressman, first of all, I do not agree 
that there is so much difference between the attitude of the 
Turkish Government and the Turkish people. I think you did not 
take into account the occupation by the Armenian Republic of 20 
percent of Azerbaijan's territory. That is extremely important 
and very sensitive in Turkish public opinion, and that is the 
reason why the government sealed this frontier.
    We say the government sealed, but the government overlooked 
that there is cross border trade between the two sides. In 
fact, in reality there is a kind of ambivalence in the attitude 
of the government to Armenia. When Armenia became independent, 
Turkey was very happy, but all of a sudden this Nagorno-
Karabagh crisis broke out, and we have to take into account the 
regional balance in that region. It is extremely important. We 
have certainly obligations toward Azerbaijan. We cannot accept 
the occupation by a country of a very large territory creating 
1 million refugees. That is the reason.
    But the Turkish public opinion, including Turkish press and 
media, criticized the attitude of the government when the 
government, one branch of the government, without instructions, 
I mean, according to the news, turned back a delegation from 
Armenia.
    You know, despite the fact that we do not have any 
diplomatic relations, all the governmental officials, including 
the Prime Minister, pay an official visit to Turkey. We are 
always on talking terms with them. We discuss our problems, and 
we told them several times that what we are expecting is a 
gesture toward Azerbaijan so that we can establish our 
diplomatic relations.
    If you ask my personal view, I say it was a mistake not to 
establish diplomatic relations soon after Armenia became 
independent.
    Mr. Pallone. But is your view that the reason we are not 
establishing--the Turkish Government is not establishing 
diplomatic relations with Armenia because the Turkish people 
would not accept it?
    Mr. Aktan. No. Because of the situation, the war situation, 
between Armenia and Azerbaijan. The Turkish people have a great 
sympathy for the Azeri people because there is a very large 
Azeri population in Turkey.
    Mr. Pallone. I understand that, but, you see, my whole 
premise here, and again I want to issue a question. My whole 
premise here is that by having this resolution passed the U.S. 
Government will be saying to the Turkish Government we do not 
like--this genocide occurred. We want you to recognize it, too, 
or at least we are putting ourselves on record, you know, as an 
ally of Turkey to say that that is our view.
    Your whole response to that and Ambassador Grossman's 
response was oh, that is going to create a catastrophe between 
our two states. It is going to be sour relations terribly. I 
just do not agree with that. I mean, I do not see it.
    You know, when I was in Gumry, for example, and, you know, 
you talk to people there. You talk to Turkish Americans here in 
the United States as well. In I guess it is the eastern part of 
Turkey, in that region that is west of Armenia, the Carz 
region, there is a tremendous interest on the behalf of the 
business community and the people for trade and lifting the 
embargo so that they can go back and forth because they are 
naturally one region.
    The Turkish Government then steps in and says no, we do not 
want that to happen. Is that not something that is being 
imposed from above rather than from the people?
    Mr. Aktan. No, I do not think so, Mr. Congressman. As I 
said, the reason is quite simple; because of Armenia's 
relations with Azerbaijan. It is as simple as that. No Turkish 
Government can change this position. That is very unfortunate, 
but this is the situation.
    Can I go back to one of your statements because you said 
that you do not want similar genocides.
    Mr. Pallone. Let me explain what I meant by that because I 
do not want you to misunderstand me.
    I know that Armenia is a very small country by contrast to 
Turkey, OK, militarily, economically, whatever, very small. I 
think that the Armenian Government is very concerned about it 
certainly would not want a war with Turkey because they would 
assume that they would lose it, OK, so I do not think they are 
in a position to be, you know, going to the Hague and asking, 
you know, for some action with regard to the genocide.
    You know, we are the powerful ones here in the United 
States. We are in the position to say this happened, you know, 
recognize it and do something about it; not the Armenian 
Government. They do not have that. You know, whether they do it 
or not I do not know, but I think it would be very difficult 
for them because of their situation there as a very small 
country.
    I worry that if the Turkish Government does not--you know, 
if the Turkish Government continues the position that it has, 
which is, you know, blockade, no interaction, whatever, that 
what that does is create a sort of an anti-Armenian hatred that 
does not already exist, and so, you know, I am fearful that 
there could be another war. I am fearful that----
    Mr. Aktan. Yes, sir.
    Mr. Pallone [continuing]. Turkey and Armenia could come to 
a war and that the consequences of it could be that the 
Armenian population and the Republic of Armenia is wiped out 
because it is so much a bigger country.
    Mr. Aktan. There is no such chance.
    Mr. Pallone. Hopefully that never happens, but I just want 
you to understand where I am coming from. I think it is 
incumbent upon the Turkish Government, which is not even here 
represented today, that if they are going to create a better 
atmosphere between the two countries that they recognize the 
genocide, just like Germany did, you know, the Nazi Holocaust. 
Now they have good relations with Israel.
    There are so many examples like that. I just do not believe 
that the consequence of this Congress taking this action is 
anything but helpful in terms of the relations between these 
Caucasus nations and the United States.
    It worries me when you say in your statement that, you 
know, this is akin to a suicide or there is going to be sealing 
of the borders or, you know, these other things about, you 
know, you have the same line essentially that Ambassador 
Grossman has and even Dr. McCarthy.
    I will ask him. He said the same thing. He says I do not 
believe that the Turkish Government is staying quiet because--
no. He says that he believes the Turkish Government is fearful 
of its own people, the Turkish people.
    Mr. McCarthy. Excuse me? Surely that could not have been 
what I meant.
    Mr. Pallone. I know, but you gave me the same impression, 
Dr. McCarthy, that somehow if we pass this resolution the 
reaction in Turkey would be such that the government would have 
to take, you know, extraordinary measures.
    Mr. McCarthy. I believe that all governments should be 
responsive to what their people want. The area that we disagree 
on, first of all, is whether there was a genocide. You say it 
should be admitted because it happened. I say it should not be 
admitted because it did not happen.
    Mr. Pallone. But you did say----
    Mr. McCarthy. The other matter----
    Mr. Pallone [continuing]. That you felt that if we passed 
this, regardless of the history, that it would have a negative 
impact on the relationship.
    Mr. McCarthy. And where our disagreement lies very much is 
how we view what the Turks really think about this.
    I think I can honestly say that I have some reason to speak 
on the issue. I first went to Turkey in 1967 for 2 years as a 
Peace Corps volunteer, and I have been back many, many times 
over the following years. I have studied the language of the 
area. I speak Turkish, and I make a point of talking to cab 
drivers, not just university professors.
    It is my opinion that the Turkish people, if one can use 
such a phrase, are overwhelmingly against the sentiment in this 
resolution. You said you have spoken to Turkish Americans on 
this. Well, I see a number of Turkish Americans in the 
audience, and they are not wearing ``Yes'' buttons.
    I think if this is passed you will see overwhelming Turkish 
newspaper coverage. You will see people on radio, on 
television, in newspapers, and what they will say is, I think, 
basically what I told you. They will say these people are lying 
about our forefathers. They will say these people are 
forgetting about the dead Turks because all they care about are 
the dead Armenians.
    If we were in the same position and if you believed the 
same thing someone said about your father and grandfather and 
great-grandfather, you would feel the same way.
    Mr. Pallone. But there is a difference, and I do not want 
to keep dwelling on the point because I think Ambassador Aktan 
referenced it. The difference is that this historical record, 
in my opinion, is such that it was the action was taken by the 
state. It was intentional action taken by the state, and that 
is the definition of genocide, and that is what I do not want 
to be repeated. That is all I am saying.
    Mr. McCarthy. If I could just say one thing about that? It 
should be at least understood that this is another area in 
which there is intense disagreement. It is my opinion, and that 
of a number of other historians, that the majority of murders, 
the majority of actual deaths that took place on both Armenians 
and Muslims, was not the action of any of the states, but was 
the action of small bands and individuals.
    Mr. Pallone. Well, let me just say----
    Mr. McCarthy. The villagers have killed each other.
    Mr. Pallone. All right. Let me ask you this.
    Mr. McCarthy. That is the primary reason.
    Mr. Pallone. I am not going to keep asking because I want 
to get on to the next panel, too, but I do not know what you 
said, but I will ask you again.
    In the resolution it specifically makes reference to the 
trials that took place I think after the first world war where 
the leaders of Turkey were indicted and tried and convicted of 
having conducted these massacres, OK, which I take to be 
genocide. If you say that a person who is in charge as an 
elected official or a government official was intentionally 
doing this and tried for it, then that is genocide.
    Mr. McCarthy. Well, but that is not what the trials 
actually were.
    Mr. Pallone. All right. How do you explain these trials? 
You say that they were just----
    Mr. McCarthy. Yes?
    Mr. Pallone [continuing]. Bogus or what?
    Mr. McCarthy. It was not an elective Turkish Government. It 
was not anything like that. What it was----
    Mr. Pallone. But the leaders were tried?
    Mr. McCarthy. No. The leaders were tried, but it is as if--
I do not know how to put it. If you picked six of your friends 
as a jury and decided to hold a trial.
    These are people who lost the war. The government that was 
elected, which is a government that you do not approve of, was 
thrown out of office by military action by the allies and 
others. They were afraid for their lives, and they ran, 
ultimately to be killed by Armenians.
    An unelected government was put into power. This unelected 
government called a quisling court. They called a court of 
people that were traitors to their own country.
    Mr. Pallone. How is it any different from the Nuremberg 
trials----
    Mr. McCarthy. Oh, completely different.
    Mr. Pallone [continuing]. Or the trials that took place in 
Tokyo?
    Mr. McCarthy. Completely different in every way.
    Mr. Pallone. How so? How so?
    Mr. McCarthy. Because the British and the Americans at the 
Nuremberg trials called trials in which absolute standards of 
evidence were kept and in which people were allowed to defend 
themselves.
    In this case, the British did no such thing. The allies did 
no such thing. What they did was they said to their friends in 
this quisling government, ``Look, could you take care of this 
for us?'' The British themselves, when they realized that that 
was not working, tried to find the evidence to do it themselves 
and failed miserably. If it had been brought to a real court 
the court would have voted it down immediately.
    Not even the people in favor of it could find the evidence, 
and they had all the archives in their hands. Everything was 
there, and they could not find it.
    Mr. Pallone. It seems to me----
    Mr. McCarthy. Now, that is absurd.
    Mr. Pallone. It seems to me that the only difference is 
that in the case of what happened in Japan and at Nuremberg the 
allies completely, you know, took over the country and occupied 
the country and stayed there for long enough so that the 
convictions held sway, whereas in the case of Turkey or the 
Ottoman Empire the allies quickly pulled out and, therefore, no 
one ever--the convictions were never enforced.
    Mr. McCarthy. Are you in favor of--I am sorry to ask this 
in this way, but are you in favor of politically appointed 
juries that are taken from one's enemies, from one's political 
opponents, by an unelected government, and then saying that 
this is a rational decision?
    Mr. Pallone. I do not see any difference.
    Mr. McCarthy. This is exactly what we have to stand 
against.
    Mr. Pallone. Well, I am asking the questions, so it is 
unfair of me to keep insisting on my point, but I do not really 
see any difference between what happened in Turkey, Germany or 
Japan other than that in the case of Turkey the allies quickly 
got out of there, and as a result these convictions were never 
enforced.
    Mr. McCarthy. Well, I would suggest that you should read 
the transcripts of these trials. If you did, I think you would 
find great differences. Again, I cannot believe that you think 
that is the way a court should be constituted.
    Mr. Pallone. I just wanted you to answer the question, and 
I appreciate your answer. I mainly was concerned about what the 
Ambassador said in terms of his feeling about the consequence 
of this resolution because I think it is just the opposite, 
but, you know, we are not going to agree, and I suppose that is 
why we are here because of the disagreements.
    Thank you, Mr. Chairman.
    Mr. Smith of New Jersey. Thank you, Mr. Pallone.
    I would like to thank our very distinguished panel. While 
there is a huge gulf and a very significant disagreement, I 
think the dialogue and the debating was very enlightening.
    I do thank you for taking time out of your busy schedules 
to be here and look forward to being in further contact with 
each and every one of you.
    Mr. McCarthy. And could we thank you and the Committee for 
the kindness you have shown us? Thank you.
    Mr. Smith of New Jersey. Thank you, Dr. McCarthy.
    Mr. Melson. Thank you, Mr. Smith.
    Mr. Smith of New Jersey. Yes, Doctor?
    Mr. Melson. I have some documents which I would like to 
leave for you.
    Mr. Smith of New Jersey. Without objection, those documents 
will be made a part of the record, as well as the document that 
has been given to me by Congressman John Porter asking that 
that be made a part of the record. Without objection, so 
ordered.
    [The above-mentioned documents appear in the appendix.]
    The hearing is adjourned.
    [Whereupon, at 6:38 p.m. the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                           September 24, 1999

=======================================================================

      <plus-minus>
    [GRAPHIC] [TIFF OMITTED] T9533.001
    
    [GRAPHIC] [TIFF OMITTED] T9533.002
    
    [GRAPHIC] [TIFF OMITTED] T9533.003
    
    [GRAPHIC] [TIFF OMITTED] T9533.004
    
    [GRAPHIC] [TIFF OMITTED] T9533.005
    
    [GRAPHIC] [TIFF OMITTED] T9533.006
    
    [GRAPHIC] [TIFF OMITTED] T9533.007
    
    [GRAPHIC] [TIFF OMITTED] T9533.008
    
    [GRAPHIC] [TIFF OMITTED] T9533.009
    
    [GRAPHIC] [TIFF OMITTED] T9533.010
    
    [GRAPHIC] [TIFF OMITTED] T9533.011
    
    [GRAPHIC] [TIFF OMITTED] T9533.012
    
    [GRAPHIC] [TIFF OMITTED] T9533.013
    
    [GRAPHIC] [TIFF OMITTED] T9533.014
    
    [GRAPHIC] [TIFF OMITTED] T9533.015
    
    [GRAPHIC] [TIFF OMITTED] T9533.016
    
    [GRAPHIC] [TIFF OMITTED] T9533.017
    
    [GRAPHIC] [TIFF OMITTED] T9533.018
    
    [GRAPHIC] [TIFF OMITTED] T9533.019
    
    [GRAPHIC] [TIFF OMITTED] T9533.020
    
    [GRAPHIC] [TIFF OMITTED] T9533.021
    
    [GRAPHIC] [TIFF OMITTED] T9533.022
    
    [GRAPHIC] [TIFF OMITTED] T9533.023
    
    [GRAPHIC] [TIFF OMITTED] T9533.024
    
    [GRAPHIC] [TIFF OMITTED] T9533.025
    
    [GRAPHIC] [TIFF OMITTED] T9533.026
    
    [GRAPHIC] [TIFF OMITTED] T9533.027
    
    [GRAPHIC] [TIFF OMITTED] T9533.028
    
    [GRAPHIC] [TIFF OMITTED] T9533.029
    
    [GRAPHIC] [TIFF OMITTED] T9533.030
    
    [GRAPHIC] [TIFF OMITTED] T9533.031
    
    [GRAPHIC] [TIFF OMITTED] T9533.032
    
    [GRAPHIC] [TIFF OMITTED] T9533.033
    
    [GRAPHIC] [TIFF OMITTED] T9533.034
    
    [GRAPHIC] [TIFF OMITTED] T9533.035
    
    [GRAPHIC] [TIFF OMITTED] T9533.036
    
    [GRAPHIC] [TIFF OMITTED] T9533.037
    
    [GRAPHIC] [TIFF OMITTED] T9533.038
    
    [GRAPHIC] [TIFF OMITTED] T9533.039
    
    [GRAPHIC] [TIFF OMITTED] T9533.040
    
    [GRAPHIC] [TIFF OMITTED] T9533.041
    
    [GRAPHIC] [TIFF OMITTED] T9533.042
    
    [GRAPHIC] [TIFF OMITTED] T9533.043
    
    [GRAPHIC] [TIFF OMITTED] T9533.044
    
    [GRAPHIC] [TIFF OMITTED] T9533.045
    
    [GRAPHIC] [TIFF OMITTED] T9533.046
    
    [GRAPHIC] [TIFF OMITTED] T9533.047
    
    [GRAPHIC] [TIFF OMITTED] T9533.048
    
    [GRAPHIC] [TIFF OMITTED] T9533.049
    
    [GRAPHIC] [TIFF OMITTED] T9533.050
    
    [GRAPHIC] [TIFF OMITTED] T9533.051
    
    [GRAPHIC] [TIFF OMITTED] T9533.052
    
    [GRAPHIC] [TIFF OMITTED] T9533.053
    
    [GRAPHIC] [TIFF OMITTED] T9533.054
    
    [GRAPHIC] [TIFF OMITTED] T9533.055
    
    [GRAPHIC] [TIFF OMITTED] T9533.056
    
    [GRAPHIC] [TIFF OMITTED] T9533.057
    
    [GRAPHIC] [TIFF OMITTED] T9533.058
    
    [GRAPHIC] [TIFF OMITTED] T9533.059
    
    [GRAPHIC] [TIFF OMITTED] T9533.060
    
    [GRAPHIC] [TIFF OMITTED] T9533.061
    
    [GRAPHIC] [TIFF OMITTED] T9533.062
    
    [GRAPHIC] [TIFF OMITTED] T9533.063
    
    [GRAPHIC] [TIFF OMITTED] T9533.064
    
    [GRAPHIC] [TIFF OMITTED] T9533.065
    
    [GRAPHIC] [TIFF OMITTED] T9533.066
    
    [GRAPHIC] [TIFF OMITTED] T9533.067
    
    [GRAPHIC] [TIFF OMITTED] T9533.068
    
    [GRAPHIC] [TIFF OMITTED] T9533.069
    
    [GRAPHIC] [TIFF OMITTED] T9533.070
    
    [GRAPHIC] [TIFF OMITTED] T9533.071
    
    [GRAPHIC] [TIFF OMITTED] T9533.072
    
    [GRAPHIC] [TIFF OMITTED] T9533.073
    
    [GRAPHIC] [TIFF OMITTED] T9533.074
    
    [GRAPHIC] [TIFF OMITTED] T9533.075
    
    [GRAPHIC] [TIFF OMITTED] T9533.076
    
    [GRAPHIC] [TIFF OMITTED] T9533.077
    
    [GRAPHIC] [TIFF OMITTED] T9533.078
    
    [GRAPHIC] [TIFF OMITTED] T9533.079
    
    [GRAPHIC] [TIFF OMITTED] T9533.080
    
    [GRAPHIC] [TIFF OMITTED] T9533.081
    
    [GRAPHIC] [TIFF OMITTED] T9533.082
    
    [GRAPHIC] [TIFF OMITTED] T9533.083
    
    [GRAPHIC] [TIFF OMITTED] T9533.084
    
    [GRAPHIC] [TIFF OMITTED] T9533.085
    
    [GRAPHIC] [TIFF OMITTED] T9533.086
    
    [GRAPHIC] [TIFF OMITTED] T9533.087
    
    [GRAPHIC] [TIFF OMITTED] T9533.088
    
    [GRAPHIC] [TIFF OMITTED] T9533.089
    
    [GRAPHIC] [TIFF OMITTED] T9533.090
    
    [GRAPHIC] [TIFF OMITTED] T9533.091
    
    [GRAPHIC] [TIFF OMITTED] T9533.092
    
    [GRAPHIC] [TIFF OMITTED] T9533.093
    
    [GRAPHIC] [TIFF OMITTED] T9533.094
    
    [GRAPHIC] [TIFF OMITTED] T9533.095
    
    [GRAPHIC] [TIFF OMITTED] T9533.096
    
    [GRAPHIC] [TIFF OMITTED] T9533.097
    
    [GRAPHIC] [TIFF OMITTED] T9533.098
    
    [GRAPHIC] [TIFF OMITTED] T9533.099
    
    [GRAPHIC] [TIFF OMITTED] T9533.100
    
    [GRAPHIC] [TIFF OMITTED] T9533.101
    
    [GRAPHIC] [TIFF OMITTED] T9533.102
    
    [GRAPHIC] [TIFF OMITTED] T9533.103
    
    [GRAPHIC] [TIFF OMITTED] T9533.104
    
    [GRAPHIC] [TIFF OMITTED] T9533.105
    
    [GRAPHIC] [TIFF OMITTED] T9533.106
    

</pre></body></html>
